<html>
<title> - THE FISCAL YEAR 2015 EPA BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                    THE FISCAL YEAR 2015 EPA BUDGET

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

                           Serial No. 113-133
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                ____________
                                
                                
                                
                                U.S. GOVERNMENT PUBLISHING OFFICE
90-780 PDF	                     WASHINGTON : 2015                                

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a>  









                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                  (ii)
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        JOHN A. YARMUTH, Kentucky
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)    HENRY A. WAXMAN, California (ex 
                                         officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
    Prepared statement...........................................     5
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     7
    Prepared statement...........................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9

                                Witness

Gina McCarthy, Administrator, Environmental Protection Agency....    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    64

                           Submitted Material

Slide, dated February 20, 2013, URS Corporation, submitted by Mr. 
  Olson..........................................................    47
Slide, dated January 21, 2010, Nature, submitted by Mr. Olson....    49


                   THE FISCAL YEAR 2015 EPA BUDGET

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                  House of Representatives,
                  Subcommittee on Energy and Power,
                             joint with the
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the Subcommittee on Energy and Power) 
presiding.
    Present from the Subcommittee on Energy and Power: 
Representatives Whitfield, Scalise, Hall, Pitts, Terry, 
Burgess, Latta, Cassidy, Olson, McKinley, Gardner, Kinzinger, 
Griffith, Barton, Upton (ex officio), Rush, Tonko, Engel, 
Green, Capps, Barrow, Christensen, and Waxman (ex officio).
    Present from the Subcommittee on Environment and the 
Economy: Representatives Shimkus, Murphy, Bilirakis, Johnson, 
Pallone, DeGette, and McNerney.
    Also present: Representative Long.
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Deputy Communications 
Director; Matt Bravo, Professional Staff Member; Allison 
Busbee, Policy Coordinator, Energy and Power; Megan Capiak, 
Staff Assistant; Jerry Couri, Senior Environmental Policy 
Advisor; Patrick Currier, Counsel, Energy and Power; Tom 
Hassenboehler, Chief Counsel, Energy and Power; Ben Lieberman, 
Counsel, Energy and Power; Alexa Marrero, Deputy Staff 
Director; David McCarthy, Chief Counsel, Environment and the 
Economy; Brandon Mooney, Professional Staff Member; Mary 
Neumayr, Senior Energy Counsel; Mark Ratner, Policy Advisor to 
the Chairman; Chris Sarley, Policy Coordinator, Environment and 
the Economy; Peter Spencer, Professional Staff Member, 
Oversight; Tom Wilbur, Digital Media Advisor; Phil Barnett, 
Democratic Staff Director; Alison Cassady, Democratic Senior 
Professional Staff Member; Jacqueline Cohen, Democratic Senior 
Counsel; Greg Dotson, Democratic Staff Director, Energy and the 
Environment; Caitlin Haberman, Democratic Policy Analyst; 
Alexandra Teitz, Democratic Senior Counsel, Environment and 
Energy; Kate Stoll, Democratic Fellow; and Ryan Schmit, 
Democratic EPA Detailee.
    Mr. Whitfield. I would like to call the hearing to order 
this morning. The title of our hearing is the Fiscal Year 2015 
EPA Budget, and we certainly want to welcome EPA Administrator 
Gina McCarthy for being here with us today and talking about 
the budget and other actions that are taking place over at EPA. 
You want to start my 3 minutes?
    Each of us that are giving opening statements today will be 
given 3 minutes because we want to be able to get to the budget 
and talk about a lot of issues.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Jonathan Turley, a professor over at George Washington 
University, was testifying before the Judiciary Committee 
recently, and in his testimony he said that President Obama's 
extensive use of executive orders, executive actions, and 
unilateral regulatory action threatens to enable President 
Obama to become a government unto himself.
    Now Professor Turley said that he had voted for President 
Obama but that he was genuinely concerned about this excessive 
use of executive authority. And when President Obama went to 
Copenhagen in 2009, he committed the United States to certain 
things relating to climate change. In his Georgetown speech and 
in his State of the Union Address, he has repeatedly indicated 
that since Congress does not act in the way that he wants it to 
act that he is going to do things by executive order and he 
will go it alone. I would say first of all that Congress has 
acted in the areas that the President is concerned about. 
Congress made the decision, a Democratic-controlled Senate, 
made the decision that we would not adopt Cap and Trade.
    And then I might say that 2 weeks ago the House of 
Representatives passed legislation for the first time ever, 
gave EPA the authority to regulate CO<INF>2</INF> emissions, 
but set parameters. And in our efforts to work with the 
administration on that legislation, we were not responded to. 
And even Mr. Dingell has repeatedly said when the Clean Air Act 
was passed, it was never thought that CO<INF>2</INF> emissions 
would be adopted.
    One of the things I am most concerned about is that the New 
Source Performance Standards for new electricity generating 
units, this proposal requires carbon capture and storage for 
cold-fired power plants which are not commercially available, 
have not been adequate demonstrated. The Energy Policy Act of 
2005 clearly prohibits EPA from relying on federally funded 
projects when determining whether CCS is adequately 
demonstrated, and yet EPA went and took three projects in the 
United States--one in Texas, one in California and one in 
Louisiana, I mean Mississippi--none of which are in operation. 
Two of them have not even started construction. And so I think 
this reflects how aggressive the administration is being.
    As a matter of fact, it was pointed out to us that GAO's 
database said that EPA had published over 1,900 rules during 
the President's first term alone.
    So we have some genuine concerns, and my time is expired.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    I would like to thank EPA Administrator Gina McCarthy for 
appearing before us today, and I certainly hope that we can 
shed some light on a number of issues with the agency's 
proposed budget and priorities for the coming fiscal year.
    EPA's budget for FY 2015 is $7.89 billion. My biggest 
concerns are with EPA's regulatory agenda and particularly its 
efforts to target energy, including coal which is the Nation's 
largest source of electricity.
    Although the President pledged to ``cut red tape'' in his 
State of the Union address, EPA is clearly moving in the 
opposite direction, piling many new major rules on top of all 
the existing ones. This includes an expansive and expensive 
global warming agenda that Congress never authorized and that 
the agency admits will have only a trivial impact on the 
earth's future temperature. In other words, EPA's climate 
agenda is all economic pain for no environmental gain, and may 
well be a part of the reason that the economy and job growth 
have remained sluggish throughout the Obama presidency.
    Just one rule impacting coal-fired power plants, the 
Mercury and Air Toxics Standards, has been estimated by the 
agency to cost $9.6 billion annually--more than the agency's 
entire budget. And the initial real-world experience with this 
rule indicates that it may cost quite a bit more than $9.6 
billion and lead to numerous plant closures. Like many of EPA's 
most extreme regulations, this rule is affecting the security 
and affordability of the energy sector.
    The regulations targeting coal have already increased the 
number of coal-fired power plant shutdowns. According to the 
North American Electric Reliability Corporation, these closures 
will accelerate in the years ahead and could lead to serious 
reliability concerns.
    And I might add that during this very cold winter, we saw 
the limits of relying too heavily on natural gas to fill the 
void left by coal. In fact, many coal-fired units pressed into 
service to meet peak demand during the coldest days are among 
those slated to be shut down in the near future. This winter 
was an early warning that if EPA's anti-coal agenda is left 
unchecked, there will be serious consequences for electricity 
reliability and affordability.
    Time and time again, we've seen EPA set extreme standards. 
We've witnessed this with the Utility MACT and the Regional 
Haze Program, with astronomical compliance costs for States and 
utilities, and in some cases, are causing power plants to shut 
down. And the toughest rules for coal are yet to be finalized. 
Anyone who doubted that EPA is trying to ``bankrupt the coal 
industry'' as President Obama promised should have been 
convinced by proposed New Source Performance Standards for new 
electric utility generating units. In effect, this proposal 
requires carbon capture and storage (CCS) for coal-fired power 
plants, which is not commercially available now and is unlikely 
to become so for a long time. If this isn't a ban on new coal, 
then nothing is.
    The Clean Air Act requires that New Source Performance 
Standards be based on technologies that are adequately 
demonstrated. In the agency's very strained attempt to claim 
that CCS is adequately demonstrated, EPA relied on projects in 
the Federal Government's Clean Coal Power Initiative. But the 
Energy Policy Act of 2005 clearly forbids EPA from relying on 
such federally funded projects when determining whether CCS is 
adequately demonstrated. The provision in EPAct 05 is an 
explicit prohibition that Congress intended to include in order 
to prevent EPA from prematurely mandating the use of a 
technology before it is commercially viable.
    This committee's November 15, 2013, letter to EPA specified 
these violations, which are all too typical of an agency that 
routinely exceeds its authority to achieve a predetermined 
agenda. And the agency's failure to respond to the letter is 
all-too-typical of the lack of EPA's transparency and 
responsiveness.
    I hope we can explore these and other serious concerns with 
both the substance and the legality of EPA's regulatory agenda 
for the fiscal year ahead.

    Mr. Whitfield. So at this time, I would like to recognize 
the gentleman from Illinois, Mr. Rush, for his opening 
statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, and I 
certainly want to thank the Administrator, Administrator 
McCarthy, for being with us here today. I want to take a few 
moments, just a quick sentence or so, to extend my 
congratulations to you. I have--was on leave of absence for a 
number of months due to my wife's illness. So I didn't get a 
chance to say congratulations. So I want to congratulate you. 
It is belated, but it is heartfelt.
    Madam Administrator, your visit here could not be more 
timely as it coincides with the release earlier this week on 
the second report from the Intergovernmental Panel on Climate 
Change which warn that the detrimental effects of man-made 
climate change are being felt, and it also warned that if we 
fail to address this issue, we can continue to expect dire 
consequences for humans and natural systems all across our 
globe.
    According to the report, the flooding, the heat waves, the 
reduced crop yields that we have witnessed recently both here 
and abroad are only going to get worse if we do not act to curb 
the effects of climate change sooner rather than later. In 
fact, as a Chairman of the IPCC noted when the study was 
released, and I quote, ``Nobody on the planet is going to be 
untouched by the impacts of climate change.''
    So Madam Administrator, I for one want to applaud you, 
applaud your agency, for your outstanding work for being on the 
front lines for our Nation's fight against the impacts of 
climate change, and I certainly do not envy the task that all 
of you face. At a time when the EPA's budget is consistently 
being slashed, the American people are still relying on you and 
your Agency to do everything in its power to protect the public 
health, both today and for future generations of American 
families.
    The President's fiscal year 2015 budget request of $7.89 
billion represents a $310 million decrease from last year's 
level and in fact represents a smaller budget than that which 
was enacted in fiscal year 2003 under President Bush. And my 
Republican colleagues will slash this budget even further in an 
attempt to hamstring your agency, all while the world's leading 
scientists warn us of all the calamitous consequences if we 
fail to curb the effects of climate change and curb the effects 
of it now.
    Madam Secretary, again, I applaud the steps that the Obama 
administration under your leadership is already taking to 
reduce our Nation's global footprint, and I look forward to 
hearing your thoughts and your comments on the latest IPCC 
report as well as the constructive ways we can address this 
urgent issue right now.
    Thank you, and with that, I yield the balance of my time to 
Mr. Tonko.
    Mr. Whitfield. Well, you are out of time, Mr. Rush. I went 
21 seconds over. You have gone a minute and 10 seconds over 
because we only had 3 minutes.
    Mr. Rush. Well, I ask unanimous consent that my colleague, 
Mr. Tonko, be given 2 minutes for an opening statement.
    Mr. Whitfield. He will get 3 minutes.
    Mr. Rush. Three minutes?
    Mr. Whitfield. Yes, he will get three.
    Mr. Rush. You are most gracious.
    Mr. Whitfield. I am glad you are back, by the way.
    Mr. Rush. Thank you.
    Mr. Whitfield. At this time I recognize--this is a joint 
hearing, so he gets his 3 minutes. He went a minute over and I 
went 21 seconds over, and now I am going to recognize Mr. 
Shimkus for his 3 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. And I will try to be punctual. Thank you, Mr. 
Chairman. Welcome, Administrator McCarthy, and thank you for 
appearing today. I plan to focus my comments and later my 
questions on programs within my subcommittee's jurisdiction.
    Your authorities under the Safe Drinking Water Act and 
Solid Waste Disposal Act, the Toxic Substances Control Act and 
the Superfund all come under the Environment and the Economy 
Subcommittee. These programs touch the lives of most every 
American citizen.
    On several issues, EPA and our subcommittee have worked 
together closely and successfully on a bipartisan basis to 
solve problems. For example, with your support we enacted E-
Manifest in October 2012 to set up an electronic reporting 
program for hazardous materials under RCRA. Once we got 
consensus around the basic policy, we had to negotiate the 
complex thickets of budget rules, but we finally got it through 
the House and Senate and to the President for his signature. We 
are looking for a good progress report on E-Manifest today.
    In another example, on drinking water we worked with you 
and in the end, in the last year, to solve the problem you 
identified involved fire hydrants. In record time, we were able 
to agree on the scope of the issue and draft legislation and 
move it through Congress to the President's desk. As a result, 
water system managers and firefighters across America never had 
to face the terrible dilemma whether or not to keep a hydrant 
out of service just to comply with a restriction that none of 
us intended to impose.
    So with those two solutions under our belts, let us turn 
together to TSCA reform. Just in the last 10 months I have 
convened six hearings on TSCA. In February we released a 
discussion draft of a modernization bill. We have gotten 
comments from a wide range of stakeholders. EPA has given us 
some valuable but preliminary technical assistance, but many 
large policy issues still remain unresolved. We want to resolve 
those with you, and we hope you share our ambition and sincere 
desire to make this a collaborative process.
    Our Founding Fathers never said it would be easy getting 
agreement among the President and a majority of the House and 
the Senate, but that is no reason not to try. We look forward 
to working closely with you on these and other issues to 
protect our citizens' health and their way of life. And with 
that, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Welcome, Administrator McCarthy, and thank you for 
appearing today. I plan to focus my comments and later my 
questions on programs within my subcommittee's jurisdiction. 
Your authorities under the Safe Drinking Water Act, the Solid 
Waste Disposal Act, the Toxic Substances Control Act (TSCA), 
and Superfund all come under the Environment and the Economy 
Subcommittee. These programs touch the lives of almost everyone 
in the United States.
    On several issues EPA and our subcommittee have worked 
together closely and successfully on a bipartisan basis to 
solve problems. For example, with your support we enacted E-
manifest in October 2012, to set up an electronic reporting 
program for hazardous materials under RCRA. Once we got 
consensus around the basic policy, we had to negotiate the 
complex thickets of budget rules, but we finally got it through 
the House and Senate and to the President for his signature. We 
are looking for a good progress report on E-manifest today.
    In another example, on drinking water, we worked with you 
at the end of last year to solve the problem you identified 
involving fire hydrants. In record time we were able to agree 
on the scope of the issue, draft legislation, and move it 
through Congress to the President's desk. As a result, water 
system managers and firefighters across America never had to 
face a terrible dilemma: whether or not to keep a fire hydrant 
out of service just to comply with a restriction that none of 
us intended to impose.
    So with those two solutions under our belts, let's turn 
together to TSCA reform. Just in the last 10 months, I've 
convened six hearings on TSCA and in February we released a 
discussion draft of a modernization bill. We've gotten comments 
from a wide range of stakeholders. EPA has given us some 
valuable, but preliminary technical assistance, but many large 
policy issues still need resolution. We want to resolve those 
with you, and we hope you share our ambition and sincere desire 
to make this a collaborative process.
    Our Founding Fathers never said it would be easy getting 
agreement among the President and a majority of the House and 
of the Senate. But that's no reason to not try. We look forward 
to working closely with you on these and other issues to 
protect our citizens' health and their way of life.

    Mr. Whitfield. The gentleman yields back. This time I want 
to recognize the gentleman from New York, Mr. Tonko, for his 3-
minute opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chairman. Good morning. As we 
know, we are here to discuss the fiscal year 2015 budget 
request for the Environmental Protection Agency. Welcome 
Administrator McCarthy, and thank you for being here today, and 
more importantly, thank you for your tremendous leadership of a 
very important agency.
    I however regret that I find the administration's budget 
request for your Agency disappointing. A budget does more than 
lay out the annual priorities for the current year's work. It 
is or it should be a statement about what we aspire to for the 
future. This budget is not very inspiring. There are many unmet 
needs in communities across this great country. When I visit 
towns across my district, I see the need, and I think we should 
be addressing that need.
    We have been cruising along on investments that our 
parents' generation made in this country. They invested in the 
infrastructure to deliver clean, safe drinking water, drinking 
water that is delivered to American homes across this country. 
There should be no question that we maintain that level of 
service, not reduce our commitment. Water is basic to 
everything we do in our daily lives and in our economy. Water 
is essential for agriculture, for fisheries, for recreation, 
manufacturing, transportation, energy development and yes, for 
daily living.
    The 2013 Infrastructure Report Card produced by the 
American Society of Civil Engineers gave our Nation a D on 
drinking water infrastructure, and that D was not meant to 
stand for delightful. New York State, by their estimates, will 
require an investment of $27 billion over the next 2 decades. 
There are other States facing that same situation. That is a 
huge need. In addition to the backlog of infrastructure repair 
and replacement, we also need to redesign some of our 
infrastructure to withstand the new conditions we will face due 
to climate change.
    So we cannot maintain our edge as a Nation in this 21st 
Century with infrastructure from the 19th and 20th Centuries in 
need of repair. We could be putting many people to work, 
rebuilding the infrastructure to support our modern society and 
maintain a strong and vibrant economy.
    There are some important initiatives under way as part of 
the President's Climate Action Plan, and I am supportive of 
that. I am very encouraged by it. But we could do much better 
for our citizens and for future generations.
    I want to work with you to make the Federal Government a 
stronger partner with State and local governments in reducing 
the backlog of infrastructure projects. We all want to ensure 
that tax dollars are spent efficiently and effectively, but 
doing more with less is not going to address the situation 
where need is growing. It is not a sustainable strategy, and it 
will not deliver the 21st Century infrastructure that we need. 
My question: Why put investment off? Infrastructure problems 
cost money, and the longer projects are delayed the higher the 
cost to restore services.
    Administrator McCarthy, I know you believe that 
environmental protection and economic development go hand in 
hand. I have seen you in action. I know you are committed. I 
want to work with you to continue to demonstrate the power of 
that combination. And again, I thank you for appearing before 
this joint committee hearing. I yield back
    Mr. Whitfield. At this time I will recognize the gentleman 
of the full committee, Mr. Upton, for 3 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and welcome. I 
want to begin as I did last year by acknowledging and 
applauding the success of our Nation's efforts to protect and 
improve our environment over the years.
    Under existing regulations our air quality has improved 
dramatically. This is something that our entire country should 
be proud of. EPA reports that total emissions of toxic air 
pollutants decreased by approximately 42 percent between 1990 
and 2005, and between 1980 and 2010, total emissions of the six 
principal air pollutants dropped by 63 percent.
    I want to commend EPA's efforts to resolve issues such as 
Superfund cleanups, particularly appreciative of your focus 
along with my two Senators on the Kalamazoo River, particularly 
the Allied site and look forward to getting that project 
accomplished. And total removal may well turn out to be the 
most cost-effective solution in the long run.
    But in spite of this success over the last few decades, I 
do have some concern over EPA's regulatory trajectory. The 
number and scope of EPA's regulations is continuing to grow 
without precedent. This administration is seeking to regulate 
sometimes where they failed to legislate, and that pace is 
continuing with the release of several major rules that impose 
indeed billions of dollars in costs with somewhat questionable 
benefits.
    These rules continue to threaten not only electric 
reliability and affordability, but they certainly shake up the 
confidence in the manufacturing renaissance under way. EPA 
continues to regulate too much too fast. No wonder so many job 
creating companies are holding back on new investment. They not 
only face rising energy and compliance costs but also 
uncertainty as to what those new regs are going to require.
    The worst of EPA's regulatory agenda may yet to come, 
especially with the greenhouse gas regs for power plants. We 
have yet to see fully what EPA plans proposed for existing 
power plants or the full impact on consumers' electric bills 
and unemployment. But if we allow that agenda to continue 
without the proper oversight, we may well see higher costs, 
more jobs lost and widespread problems.
    We get constant reassurances from the administration that 
costs are minimal and benefits always trump costs when it comes 
to EPA's regs. Of course the health law was also rolled out 
with a host of assurances that certainly fell woefully short. 
Many EPA rules were introduced with the same kind of rosy 
economic promises and while they are proving to be just as 
detached from reality.
    When I meet with manufacturers, I usually hear about the 
problems with the health law and yes, problems with EPA. Both 
threaten job and global competitiveness and do so at a time 
when low energy prices are finally giving American 
manufacturing an edge.
    Administrator McCarthy, you were recently quoted in the New 
York Times saying that you want to avoid a repeat of the 
Obamacare roll-out debacle. I fear that it may be too late, but 
I certainly hope that we can work together to limit any further 
damage. And again, welcome. We appreciate your testimony. I 
yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    I want to begin as I did last year by acknowledging and 
applauding the success of our Nation's efforts to protect and 
improve our environment over the years. Under existing 
regulations, our air quality has improved dramatically. This is 
something that our entire country should be proud of--EPA 
reports that total emissions of toxic air pollutants decreased 
by approximately 42 percent between 1990 and 2005 and that 
between 1980 and 2010, total emissions of the six principal air 
pollutants dropped by 63 percent.
    I want to commend EPA's efforts to resolve issues such as 
Superfund clean-ups. I particularly appreciate your focus on 
the Kalamazoo River, particularly the Allied site, and look 
forward to getting that project accomplished. Total removal may 
well turn out to be the most cost-effective solution in the 
long run.
    In spite of this success over the last few decades, I have 
some concerns with EPA's regulatory trajectory. The number and 
scope of EPA regulations is continuing to grow without 
precedent. The Obama administration is seeking to regulate 
where they failed to legislate, and this pace has continued 
with the release of several major rules that impose billions of 
dollars in cost with questionable benefits.
    These rules continue to threaten not only electric 
reliability and affordability, but they shake up the confidence 
in the manufacturing renaissance underway. EPA continues to 
regulate too much too fast. No wonder so many job-creating 
companies are holding back on new investment--they not only 
face rising energy and compliance costs, but also uncertainty 
as to what new regulations will require.
    The worst of EPA's regulatory agenda may be yet to come, 
especially with its greenhouse gas regulations for power 
plants. We have yet to see fully what EPA plans to propose for 
existing power plants, or the full impact on consumers' 
electric bills and on employment. But if we allow this agenda 
to continue, we may well see higher costs, more jobs lost, and 
widespread problems.
    We get constant reassurances from this administration that 
costs are minimal and benefits always trump costs when it comes 
to EPA regulations. Of course, the health law was also rolled 
out with a host of assurances that fell woefully short. Many 
EPA rules were introduced with the same kinds of rosy economic 
promises, and they are proving to be just as detached from 
reality.
    When I meet with manufacturers, I usually hear about the 
problems with the health law and problems with the EPA. Both 
threaten jobs and global competitiveness, and do so at a time 
when low energy prices are finally giving American 
manufacturers an edge.
    Administrator McCarthy was recently quoted in the New York 
Times saying that she wants to avoid a repeat of the Obamacare 
rollout debacle. I fear that it may be too late, but I 
certainly hope that we can work together to limit any further 
damage.

    Mr. Whitfield. The gentleman yields back. At this time, I 
recognize the gentleman from California, Mr. Waxman, for a 3-
minute opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much. I might just make a note 
that Obamacare brought in 7 million people and appears to be 
quite successful despite the aspirations of our Republicans to 
trash it.
    Administrator McCarthy, I thank you very much for being 
here and more importantly, thank you for your service to the 
Nation at the Environmental Protection Agency. Since its 
inception, EPA has worked to make our air safer to breathe, our 
water safer to drink, and today EPA is on the front lines of 
effort to address the greatest environmental challenge of our 
time, climate change.
    Administrator McCarthy, Americans are counting on you to 
carry out the President's Climate Action Plan and cut dangerous 
carbon pollution. Earlier this week the world's scientists 
sounded an alarm once again to alert us of the high stakes if 
we fail to take immediate action on climate change.
    The Intergovernmental Panel on Climate Change, or IPCC, 
released a new report on the impacts of climate change, the 
future risks from a changing climate and opportunities for 
action to mitigate those risks. This new IPCC report concludes 
that the effects of climate change are evident on all 
continents and in all oceans. To learn about that report and 
what scientists have to say, we have to read the newspaper 
because our committee will not hold a hearing with scientists 
to hear from them directly.
    Climate change is not something we can have the luxury to 
worry about at some time in the future. It is already here. And 
the longer we wait to respond, the more pervasive, severe and 
irreversible the impacts will be. The IPCC concludes sea level 
rise threatens coastal areas with flooding and erosion. The 
oceans will grow more acidic threatening fisheries and those 
who depend on them for their livelihoods. Extreme weather 
events would become more frequent, threatening lives as well as 
critical infrastructure. Heat waves will take more lives. No 
one would be immune from the consequences of climate change, 
but the impacts will be especially severe for those who are 
least able to respond and adapt.
    I know you understand this and are committed to making the 
Environmental Protection Agency one of the world's leaders in 
the effort to protect families from dangerous climate change. I 
want you to know that I am committed to supporting your 
efforts. EPA does not often get a warm welcome in the House of 
Representatives. Don't take it personally. In fact, the House 
has voted 194 times in the last 3 years to undermine the 
Agency, 748 times to weaken fundamental environmental 
protections. That is a testament to how out of touch Congress 
has become and to the vast influence of the special interests. 
It is no way a reflection of the quality of your work at EPA 
which has been so superb.
    So I hope you will continue to do exactly what you have 
been doing, which is taking forceful, reasonable steps to 
protect the environment for our children and future 
generations. Families across America are counting on you to do 
what is right and to stand up to special interests that seem to 
be vocal in this institution, that those special interests 
would endanger our future. I yield back my time.
    Mr. Whitfield. Thank you very much, Mr. Waxman. Now at this 
time, Ms. McCarthy, I will recognize you for your 5-minute 
opening statement, and I understand you are accompanied today 
by the Acting CFO, Ms. Froehlich. We welcome you. We are 
thrilled that you are here with us this morning, and it will be 
a joyful morning.
    So at this time, Ms. McCarthy, you are recognized for 5 
minutes.

   STATEMENT OF GINA MCCARTHY, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. McCarthy. Thank you. Thank you Chairman Whitfield, also 
Chairman Shimkus, Ranking Members Rush and Tonko, it is great 
to be here in the----
    Mr. Whitfield. Would you mind just pulling the microphone a 
little bit closer?
    Ms. McCarthy. Sure. Is that better? Let us hope I don't 
blow you away later. But it is great to be here, and thanks for 
the opportunity to discuss EPA's proposed fiscal year 2015 
budget. I am joined by Maryann Froehlich who is the Agency's 
Acting CFO.
    EPA's budget request is $7.89 billion for the fiscal year 
2015 starting October 1, 2014. This budget meets the challenge 
of domestic spending constraints while still fulfilling our 
mission to protect public health and the environment.
    The fiscal year 2015 budget reflects EPA's plans to take 
advantage of new technologies and new regulatory and 
nonregulatory approaches. It recognizes that EPA is part of a 
larger network of environmental partners in our States, our 
tribes and our communities.
    This budget will provide the support for a smaller 
workforce by focusing on real progress in priority areas: 
communities, climate change and air quality, toxics and 
chemical safety, as well as clean water.
    We are asking for $7.5 million and 64 staff in fiscal year 
2015 to help provide green infrastructure, technical assistance 
for up to 100 communities to promote cost-effective approaches 
for water management. In addition, this budget request 
continues our environmental justice efforts. We will do more to 
partner with States, tribes and local governments and other 
Federal agencies. Funding for State and tribal assistance 
grants or our STAG funds are once again the largest percentage 
of the EPA's budget. Addressing the threat from climate change 
is one of the greatest challenges of this and future 
generations. The request designates $199.5 million specifically 
for this work.
    The Agency has added $10 million and 24 FTE's in fiscal 
year 2015 to support the President's Climate Action Plan with 
$2 million designated for adaptation planning. The Agency will 
also focus resources on the development of common sense and 
achievable greenhouse gas standards for power plants, the 
single largest source of carbon pollution. When it comes to 
cutting greenhouse gas emissions, the President's budget 
provides support for the States to help them implement the 
Clean Air Act.
    The EPA's budget requests almost $673 million to support 
work to improve chemical safety for all Americans and 
especially our children. We are requesting $23 million and 24 
FTE in fiscal year 2015 to support activities under the 
President's executive order on chemical safety, as well as 
Agency efforts on chemical prioritization, air toxics, radon, 
and volatile organic compounds in drinking water.
    The Nation's water resources are the lifeblood of our 
communities. We are requesting $1.775 billion for the Clean 
Water and Drinking Water State Revolving Funds. The Agency is 
also directing $8 million and 10 FTE to advance clean water 
infrastructure in sustainable design like the Municipal Storm 
Water Sewer System Program for technical support communities. 
E-Enterprise is a major joint initiative between EPA and the 
States to modernize our business practices and to look towards 
the future. The benefits of implementing just the one 
initiative, the E-Manifest system, includes annual savings 
estimated at $75 million for over 160,000 waste handlers.
    In fiscal year 2015, the Agency is requesting over $1.33 
billion to continue to apply effective approaches for cleanup 
under RCRA, Superfund, Leaking Underground Storage Tanks and 
other authorities. This strategy will ensure land is returned 
to beneficial use. $1.16 billion is requested for Superfund 
which includes a $43.4 million increase for remedial work and 
an increase of $9.2 million for emergency response and removal.
    The fiscal year 2015 budget includes a total of $1.13 
billion in categorical grants. Within that total is over $96 
million for tribal assistance program grants, an $18 million 
increase for pollution control, a $16 million increase for 
environmental information grants and a $15 million increase for 
State and local air quality management. Science is the 
foundation of EPA's work, and science is supported in this 
budget at $537.3 million.
    And lastly, recognizing the importance of the 2-year budget 
agreement Congress reached in December, we are expanding 
opportunities to all Americans as best we can, but the levels 
are not sufficient to expand them to all or to grow the economy 
in ways that we would like. For that reason, across the Federal 
Government, the budget also includes a separate, fully paid-for 
$56 billion initiative. Within this initiative is a climate 
resilience fund which includes $10 million for protecting and 
enhancing coastal wetlands and $5 million to support urban 
forest enhancement and protection.
    Chairmen Whitfield and Shimkus, I thank you for the 
opportunity to testify and also to take your questions.
    [The prepared statement of Ms. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you very much, Ms. McCarthy. As 
I said, we appreciate your being here, and I will recognize 
myself for 5 minutes of questions.
    Under your New Source Performance Standards for new 
electric utility generating units, you specifically set the 
emissions standards based on three plants in the United States, 
one in Mississippi, one in Texas and one in California. The one 
in Texas, they have not even started construction. The one in 
California, they have not even started construction. The one in 
Mississippi is being constructed. It is not in operation yet. 
None of them would be built without funding from the Federal 
Government and our tax credits under the Clean Coal Power 
Initiative. And the 2005 Energy Policy Act specifically says 
you cannot--if a facility is receiving funds from the Clean 
Coal Power Initiative, you cannot say that it has been 
adequately demonstrated.
    And we wrote a letter to you back in November asking your 
legal justification for doing this. We still have not heard 
from you all. We have talked to lawyers outside the Congress, 
inside the Congress, and everyone genuinely believes that the 
2005 act explicitly prohibits you from setting an emission 
standard if it is receiving funds from the Clean Coal Power 
Initiative. So how can you proceed with this and what are your 
lawyers telling you and do you intend to respond to our letter?
    Ms. McCarthy. Well, Mr. Chairman, I did listen to you when 
we spoke last time and we received your letter. We did respond 
by including a notice of data availability that is in the 
Federal Register which really explains the impact of EPAct on 
this proposal and the fact that we did fully consider it. We 
did have a very robust record to indicate that CCS was actually 
technically achievable and available the way the law requires.
    Mr. Whitfield. No private company is going to build one of 
those plants without money. You know, the Mississippi plan has 
a serious cost overrun. The Chairman of Southern has said this 
would not have been built without Government support.
    Ms. McCarthy. Mr. Chairman, EPAct requires that we not rely 
solely on those funded projects out of DOE to establish these 
standards. We have a very robust record, well beyond those few 
facilities to indicate that CCS is----
    Mr. Whitfield. Well, you know, that is the Government's 
position, but CEOs of private companies that have a 
responsibility investing say that there is no technology 
available to them to meet the emissions standard that you all 
are setting in this new rule. And the reason we get upset about 
it is, I mean, most people recognize Europe is the green energy 
capital of the world. Twenty-two percent of their electricity 
comes from renewables. And yet, even in Europe where they in 
the last 20 months have mothballed 30 gigawatts of new gas 
powered plants because the gas coming from Russia is so 
expensive, and as you know, their unemployment rate is even 
higher than ours and their economy is more sluggish than ours 
is, but yet last year they imported 53 percent of our coal 
exports, from America. Fifty-three percent went to Europe 
because when the gas prices went so high, they recognized they 
have to rely on coal. And under this rule, we don't have that 
flexibility.
    So what if our gas prices go high? Where are we going to be 
left in America trying to compete in the global marketplace 
when we can't even build a new coal-fired plant?
    Ms. McCarthy. Mr. Chairman, I think we have indicated many 
times that this country is relying on coal. Coal will be part 
of the energy mix for decades to come. We know where investment 
is heading in new coal facilities, and all of them that you are 
talking about, while some of them have received DOE funding, 
they are all relying on advancing CCS, recognizing that they 
are going to be around for decades----
    Mr. Whitfield. CCS is so far off----
    Ms. McCarthy [continuing]. To come.
    Mr. Whitfield [continuing]. I am telling you. It is not 
anywhere commercially viable. So you know, I guess there is no 
sense my continuing to press this point, but I tell you what. 
Those people who are involved in the utility business tell us 
explicitly that they cannot build a new coal-fired plant and 
meet these emission standards. And I think that America is 
being jeopardized by this kind of action. And I suppose event 
though you and I have great respect for each other----
    Ms. McCarthy. We do.
    Mr. Whitfield [continuing]. And I love dealing with you, it 
is just an area of where we have serious disagreements.
    Ms. McCarthy. I understand. Well, Mr. Chairman, we did try 
to address concerns. This proposal actually requires only 
partial CCS. It is an ability to move this technology forward 
and to recognize that it is an opportunity for coal.
    Mr. Whitfield. But all of this is being used for enhanced 
oil recovery, and there are many places where we need plants 
and the enhanced oil recovery cannot play a part in it.
    My time has expired. I am sorry. At this time I recognize 
Mr. Rush for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Administrator McCarthy, 
there is a lot of talk about cutting carbon pollution, and the 
other side don't ever want to talk about cutting the cost of--
or they think that the cost of climate change is zero. They 
don't ever want to own up to the fact that there is an economic 
price that we are paying and will continue to pay for the 
problems of climate change.
    I want to zero in from the general to the specific. I am 
concerned that the risk and costs of climate change, that it 
would hit the poorest and most vulnerable especially hard. I 
would like for you to give me your view on how does climate 
change multiply risks for people who are already struggling 
with hunger and with poverty and what are some of the impacts 
of climate change that you are most concerned about, 
particularly for low-income communities? As you know, we noted 
earlier that the IPCC issued a report saying that climate 
change impacts are projected to slow down economic growth, make 
poverty reduction more difficult, further erode food security 
and pull all existing and create new poverty traps. So Madam 
Administrator, talk to us a little bit about how climate change 
is going to impact our Nation's and the world's most needy and 
most disadvantaged.
    Ms. McCarthy. Thank you, Ranking Member. The real threat of 
climate change is inaction to address the problem. We have seen 
storms, we have seen intense storms, we have seen droughts, we 
have seen fires that are out of control. Many of these results 
of a changing climate were anticipated and predicted by the 
IPCC when they first started gathering. In the fifth assessment 
they just released indicates that what they predicted and 
feared is actually what we are experiencing now. And they 
predict that that will only get worse, and they also make the 
point that in addition to already large costs that this country 
and others are facing as a result of a changing climate and 
those impacts, that the most vulnerable populations, the poor, 
those living in coastal areas, those most unable to get up and 
move and protect themselves, that are going to be hurt the 
most. That is true in the U.S., and that is true 
internationally as well.
    Mr. Rush. How would you respond to those who say the United 
States shouldn't do anything to cut carbon pollution unless 
other countries do something also unless they act first even?
    Ms. McCarthy. Well, I think the reason that President Obama 
has put out a Climate Action Plan is to have the United States 
show leadership in the international community as well as to 
recognize that the things you need to do to address climate 
change can be enormously beneficial to the economy. If you are 
smart about the actions you are taking, if you use existing 
authority, you do it legally and technically correct, you can 
generate reductions in electricity generation and demand that 
will reduce carbon emissions that will save people money, 
issues like energy efficiency, switch to renewable energy. This 
is the clean energy future, not relying on the clean energy 
past.
    Mr. Rush. Mr. Chairman, I want to yield back the minute 
that I used earlier, so we are even now.
    Mr. Whitfield. OK. Thank you, Mr. Rush, and at this time I 
recognize the gentleman from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman, and Ms. McCarthy. It 
is always good to see you.
    Ms. McCarthy. You, too.
    Mr. Barton. Before I begin to give you a hard time, let me 
give you a compliment. I think you and your Agency have been as 
compliant or cooperative as you can on the renewable fuel 
standards and some of those problems. And I want to thank you 
and the Agency for trying to show some flexibility there.
    Now I have to be a little less friendly. I am going to 
follow up on what Chairman Whitfield commented on. I was 
chairman of this committee in 2005 when we passed the Energy 
Policy Act. I was chairman of the Conference Committee, and I 
had a good friend named John Dingell who is still a good 
friend, and there was the ranking member of the Energy and 
Power Subcommittee, a young man named Rick Boucher who is no 
longer in the Congress but was a very, very hard-working 
Congressman from Virginia. And they wanted to do something on 
clean coal technology, especially Rich Boucher. I know Mr. 
Griffith is here, and he replaced Mr. Boucher. So we have got a 
very good replacement in Mr. Griffith.
    But we put in a section to fund some research projects for 
clean coal technology, and I am going to read part of the 
section, Section 402, Project Criteria, and this is actually 
from the law, Public Law 10958. ``To be eligible to receive 
assistance under this subtitle, a project shall advance 
efficiency, environmental performance and cost competitiveness 
well beyond the level of technologies that are in commercial 
service or have been demonstrated on a scale that the Secretary 
determines is sufficient to demonstrate that commercial service 
is viable as of the date of enactment of this Act.'' Well 
beyond the level of technologies that are in commercial 
service. That is Section 402(a).
    If you come over a little bit further on in the section, 
you get into how to actually apply it, and in subtitle (i), 
Applicability, ``No technology or level of emission reduction 
solely by reason of the use of the technology or the 
achievement of emission reduction by one or more facilities 
receiving assistance under this Act shall be considered to be 
adequately demonstrated for purposes of Section 111 of the 
Clean Air Act, 42 U.S.C. 7411. And that is the New Source 
Performance Review section of the Clean Air Act.
    So it is explicitly clear that in funding these 
demonstration projects, whatever their level of CO<INF>2</INF> 
reduction is, that is not supposed to be used to set for New 
Source Performance Review Standards. Yet, when your Agency put 
out the proposed regulation on those standards, they referred 
to these projects, not one of which is in operation, none of 
which are even actually even close to being operable except for 
the plant down in Mississippi, and it is behind schedule and 
over budget. Now you are an intelligent woman. I think you are 
an honest woman. I think you are an able administrator. How can 
in good conscience you allow these new emission standards be 
promulgated when they are based on technology that hasn't been 
demonstrated yet and by law says you can't use these emission 
standards from these demonstration projects because they are 
not in commercial operation? I mean, Mr. Whitfield is agog, and 
I have to join him.
    Ms. McCarthy. Well, Congressman, our understanding of EPAct 
is that EPA shouldn't be relying solely on our determination of 
what is the best system of emission reduction under 111, just 
solely on the basis of EPAct-funded projects. But we can look 
at them in the context of the larger and more robust technical 
and scientific record, and that is essentially what we are 
doing.
    We know that CCS has been used and is being used at the 
commercial scale in other industries. It has been for many 
years. The technologies available, each component of that 
technology, has been in use, has been tested and is viable. And 
so we are looking at these larger projects that are full-scale 
power plants that are under construction or being developed 
within the context of that larger and more robust context.
    Mr. Barton. Well, my time is expired. I took too long 
asking the question. I have some other questions for the 
record, and I will submit those. But we are not going to go 
away on this.
    Mr. Whitfield. At this time I recognize the gentleman from 
New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Administrator, again, 
welcome.
    Ms. McCarthy. Thank you.
    Mr. Tonko. Residents in my home State of New York and all 
along the East Coast saw last year just how devastating super 
storms can be. As sea levels rise and storms become more 
violent, storm surges will pose risk further and further 
inland. In 2011, the New York State Energy Research and 
Development Authority, or NYSERDA, which I had the honor of 
leading before I came to Congress, completed an authoritative 
report on the impacts of climate change in New York State.
    According to that report, climate change will lead to the 
propagation of storm surges up the Hudson River and will move 
the salt water front further and further upstream. This will 
impair drinking water systems that draw water from the Hudson 
and could potentially contaminate the backup water supply of 
New York City. This year's budget request calls for realigning 
resources to provide technical assistance to water utilities at 
greatest risk from storm surges.
    So my question to you, Administrator, is can you elaborate 
on EPA's efforts to assist these at-risk water systems?
    Ms. McCarthy. Sure. In the President's Climate Action Plan, 
he created a Resiliency Task Force specifically to look at what 
the best practices were that we are seeing across the country 
in adapting to a changing climate. So we are not only working 
nationally and across the United States to identify these 
projects and to get the lessons learned out, but we are also 
specifically focusing on some ways in which you can address 
adaptation to climate that also enhances your ability to 
protect water cost effectively. That is what we call green 
infrastructure. That is a way of actually looking at embracing 
water that is coming in, managing it appropriately and 
preventing the storm water surges and the sewer overflows that 
we see have long-lasting impacts on both our pocketbooks as 
well as the health of our communities.
    Mr. Tonko. Thank you. Technical assistance and tools are 
only part of the solution. Water systems in New York will have 
to adapt, potentially moving intakes and infrastructure at 
great cost, and they are not alone. The drinking water 
infrastructure needs facing our cities and towns continue to 
grow and will grow significantly with climate adaptation costs.
    EPA's most recent survey of drinking water infrastructure 
needs released in June showed $384 billion worth in drinking 
water infrastructure repairs needed over the next 20 years. 
That amount is a significant increase from the previous survey 
demonstrating that investment in infrastructure is not keeping 
pace with need, yet the budget request calls for only $757 
million for the Drinking Water State Revolving Fund, a 16 
percent decrease from this year's enacted levels.
    Administrator McCarthy, if more funds were made available 
through the SRF, could more be done to replace water 
infrastructure that is at the end of its useful life?
    Ms. McCarthy. Yes, sir.
    Mr. Tonko. Well, is EPA considering alternatives to simply 
rebuilding or replacing the drinking water infrastructure that 
is in place and do we have more cost-effective options 
available that could be applied?
    Ms. McCarthy. Well, we are exploring cost-effective options 
so that we can stretch the dollars as much as possible and look 
at keeping the facilities that we have in better operating 
condition. So we are looking not only at our fiscal realities 
of what funds we have to be able to support these efforts, but 
we are looking also at directing some of those funds toward 
these green infrastructure solutions, as well as paying 
specific attention to small sources, to small water systems, 
that have particular challenges in terms of operating and 
generating and leveraging their own funds.
    Mr. Tonko. OK. You know, the discussion not only with EPA 
but across the board for infrastructure are deficient bridges, 
to cite as an example beyond EPA. There is just a need to 
invest in this country, and you know, the longer we prolong in 
that investment as I made in earlier comment, the more 
difficult it is going to be.
    So drinking water infrastructure is essential to our public 
health, and the need is acute. I think the amounts appropriated 
for the drinking water SRF should reflect that need and should 
be considerably higher than this request. I again would hope 
that this budget would not only suggest or invest in where we 
are at but certainly where we want to be, and I hope the goal 
is one that is robust in nature and one that reflects that if 
we don't do this now, we are going to pass it on to generations 
yet unborn. And I believe that morally that is incorrect, and 
certainly financially, it is ineffective. I thank you very much 
again.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. Thank you, Mr. Chairman. And Mrs. McCarthy, I 
don't totally agree with Mr. Barton's description of your 
history of dealing with businesses that are in trouble or that 
you deem in trouble. And I know you will remember this. When I 
was chairman of Science, Space and Technology, before my 
committee--and it is something I am not even going to mention, 
that you said you are not in the business of creating jobs. And 
it is my hope that the EPA would at least not stand in the way 
of job creation at this time. It is so important.
    As you have to know, abundance of natural gas supplies have 
opened up the possibility for the United States to be in a 
manufacturing renaissance almost. In his State of the Union 
Speech, your President said, ``Business plans invest almost 
$100 billion in new factories to use natural gas.'' He said I 
will cut red tape to help these States to get these factories 
built. Are you familiar with the President's statement during 
the State of the Union?
    Ms. McCarthy. Yes, I am.
    Mr. Hall. And has the President directed to help get these 
factories built?
    Ms. McCarthy. Yes, he has.
    Mr. Hall. And to use some degree of science when making 
decisions that affects these jobs?
    Ms. McCarthy. Yes.
    Mr. Hall. And what steps has he taken to cut that red tape?
    Ms. McCarthy. Actually, he has provided some additional 
funding that is proposed in the fiscal year 2015 budget.
    Mr. Hall. He just added more money on it? No more----
    Ms. McCarthy. No, it is----
    Mr. Hall [continuing]. Suggestions?
    Ms. McCarthy. No, it is actually to allow both us and 
States to work together, hand in hand, to look at how we get 
these cleaner facilities up and operating more quickly and 
through the permit process.
    Mr. Hall. Well, then in that case, when and what steps has 
EPA taken to cut the red tape?
    Ms. McCarthy. Well, we are working very hard to coordinate 
with the States----
    Mr. Hall. I know you are working hard, but what steps are 
you taking?
    Ms. McCarthy. We are working through our normal process of 
collaborating with the States to identify ways in which we can 
work together and provide technical assistance to get these 
permits up and running in a way that they are legally 
defensible and they also meet the requirements of the law.
    Mr. Hall. According to the World Bank and International 
Finance Corporations, ``ease of doing business'' index, the 
United States ranks 34th in the world in the category of 
dealing with construction permits. Are you aware of that?
    Ms. McCarthy. I am not aware of that figure, sir, no.
    Mr. Hall. Or reconstruction permits under the Clean Air 
Act's, quote, prevention of significant deterioration----
    Ms. McCarthy. Yes.
    Mr. Hall [continuing]. Or PSD, as you all call it, the 
application process can take at least 1 year, correct?
    Ms. McCarthy. It can, yes.
    Mr. Hall. It can? It takes that, does it not?
    Ms. McCarthy. That is the prescribed timeline in the Clean 
Air Act.
    Mr. Hall. And there can be an administrative appeals 
process that lasts an additional 6 months or more, correct?
    Ms. McCarthy. There can be appeals, and usually that appeal 
is productive in keeping things out of the court which can end 
up going considerably longer.
    Mr. Hall. Has EPA taken any steps to expedite the process 
for obtaining pre-construction permits under the PSD program, 
and if yes, what are those steps?
    Ms. McCarthy. We have taken recent steps, but one of the 
most important things that we have done is we provide guidance 
to States on how States are dealing with their permits, how 
they can take advantage of issues that have been resolved 
elsewhere. So as they are drafting their permits, they are more 
solid. They understand that they won't be technically 
challenged, and those challenges won't be successful. So we are 
working together to try to share information with you more 
quickly.
    Mr. Hall. Well, I hope you are. In Arkansas, not far from 
my district in Texas, is a John W. Turk Plant. It uses, and 
listen to this, advanced ultra-super critical technology and is 
one of the cleanest and most highly efficient coal plants in 
the world. It came on line in December of 2012. Are you 
familiar with the Turk plant?
    Ms. McCarthy. Somewhat, not totally.
    Mr. Hall. Have you not visited it?
    Ms. McCarthy. Say it again?
    Mr. Hall. Have you not visited the Turk Plant?
    Ms. McCarthy. I have not, no.
    Mr. Hall. One this important as you make these steps that 
you are taking?
    Ms. McCarthy. Well, I am sure I have folks that have been 
there, but that is not a trip I have yet made.
    Mr. Hall. Could the Turk Plant be built under the proposed 
standards for new coal plants that you signed last September?
    Ms. McCarthy. I am not familiar with what its output is in 
terms of its carbon pollution. I do know that ultra-super 
critical can be very, very efficient and they also can be 
easily adapted to look at whether carbon capture sequestration 
is available. So I can't answer this definitively, and I 
certainly will for you.
    Mr. Hall. All right. I appreciate that.
    Ms. McCarthy. But my sense is that it may be close but 
probably not there in terms of----
    Mr. Hall. Thank you for that.
    Ms. McCarthy [continuing]. Fuel facilities' requirements.
    Mr. Hall. My time is running out. I just wanted to know 
what specifically does EPA believe the Turk Plant could do to 
further reduce its carbon dioxide emissions because you are all 
about that regulation, are you not?
    Ms. McCarthy. Well, sir, the carbon capture sequestration 
is only for new facilities. It is not intended to be a measure 
of performance for existing facilities.
    Mr. Hall. I thank you, ma'am.
    Mr. Whitfield. Mr. Hall, I might just say, I have been to 
the Turk plant, and I have been told they cannot meet the new 
emission standards of the New Source----
    Mr. Hall. Well, I think that is very sad.
    Mr. Whitfield. At this time I would like to recognize the 
gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. We need to make sure we are in line. Well, I 
want to thank the chair and the ranking member of our both 
Energy and Environmental subcommittees for holding this joint 
hearing on the EPA budget, and I want to thank our EPA 
Administrator for coming to Houston a few weeks ago. I did not 
realize that was the first time an EPA Administrator had come 
to the CERNA Energy Conference, and of course, there is no 
short of energy conferences in Houston. But that is one of the 
major ones, and I appreciate you being there.
    Like a lot of my colleagues, I have concern with the 
Agency's budget proposal, particularly regarding the cuts in 
Superfund and SRF funding, programs of great importance to our 
industrial and blue collar areas like I have in Houston and 
East Harris County. Administrator McCarthy, because in Texas 
the State didn't agree to issue the GHG permitting, the EPA had 
to implement the Federal Implementation Plan during that time, 
and we have--a significant backlog was created when EPA had to 
issue the permits. When pending NSPS rules for power plants, 
does the EPA expect opposition again from the States' 
permitting these plants?
    Ms. McCarthy. No. It seems to be going well. We did have 
concerns in Texas, and as you know, Congressman, you have been 
calling us about some of those permits, and we are working----
    Mr. Green. That backlog----
    Ms. McCarthy [continuing]. To advance the backlog.
    Mr. Green [continuing]. Is getting brought down.
    Ms. McCarthy. But we are working hand in hand with TCEQ to 
make this transition as smooth as possible, and we seem to be 
working well together.
    Mr. Green. OK. Does the EPA have a plan for effectively 
implementing a Federal Implementation Plan, if that is an 
issue? I don't know if it is in other States or is it just 
Texas?
    Ms. McCarthy. We have no plans at this time, and things are 
going well.
    Mr. Green. Does the Agency plan to address permitting with 
the--my concern is of further reduction in staff and combined 
resources, how is the Agency going to handle that with reduced 
staff under the President's budget and resources?
    Ms. McCarthy. Well, we are looking at a number of different 
types of approaches both that we would use through voluntary 
measures and others to monitor facilities more effectively 
using new technologies so that we can make sure that we keep 
abreast of compliance issues. We are going to work hard and we 
are going to figure out how we can use new technologies and 
practices to do the work that we need to do.
    There is no question that it is challenging to keep up with 
the workload, and I don't doubt that. But there is a reality in 
the budget that we are trying to face here, and we are trying 
to change the way we do business so that we are as effective as 
we have always been.
    Mr. Green. And in our area you know, delay of even longer 
keeps those permits from being issued----
    Ms. McCarthy. Yes.
    Mr. Green [continuing]. But that also keeps those jobs from 
being created in our community.
    Ms. McCarthy. But we are shifting also, sir, some in our 
priority areas where we know that there is increased work. The 
President did increase our budget for climate-related 
activities. He is supporting additional funds for the State in 
that effort so that any work that we can anticipate escalating 
will get the necessary resources. So we have budgeted 
additional funds for that.
    Mr. Green. Let me get back to the Superfund in the budget 
request. We have several superfund sites both in and around our 
congressional district including U.S. oil recovery in Pasadena, 
Texas, San Jacinto River Waste Pits which is on the San Jacinto 
River----
    Ms. McCarthy. Yes.
    Mr. Green [continuing]. Just east of our district now and 
the Cavalcade Street which is an older one. Unfortunately, this 
year's budget's Superfund request is the lowest in the last 12 
years.
    I know Superfund has been a priority for EPA. Do we know 
why the program was cut?
    Ms. McCarthy. Sir, the Superfund program has been 
enormously valuable, and the President's fiscal year budget 
requests $1.157 billion which is really a maintenance budget. 
We would like to be able to increase that, but given fiscal 
realities, we are trying to make the best of our budget 
situation.
    Mr. Green. So under the fiscal year budget proposal, the 
EPA would not have any money for new starts or new clean-ups?
    Ms. McCarthy. I don't know the answer to that question. Let 
me get back to you on this.
    Mr. Green. OK. One of the consequences of the sequestration 
cuts to the Superfund in fiscal year 2013 and 2014, was EPA 
able to begin any new projects during that period of time?
    Ms. McCarthy. Could you repeat that? I am sorry.
    Mr. Green. The sequestration cuts----
    Ms. McCarthy. Yes.
    Mr. Green [continuing]. To the Superfund, in fiscal year 
2013 and 2014, was EPA able to bring any new projects on during 
that period of time?
    Ms. McCarthy. I will get back to you on that as well, sir.
    Mr. Green. OK. Mr. Chairman, I know I am almost down to the 
end of time, so I appreciate your courtesies. Thank you.
    Mr. Whitfield. Thank you very much. At this time I will 
recognize Mr. Upton, the chairman, for 5 minutes.
    Mr. Upton. Well, thank you, and welcome again. As you may 
know, there are a couple of subcommittees meeting today at the 
same time, so we are moving back and forth. I really have just 
two questions, so I am going to ask them both and let you 
respond and then I will yield back.
    One is a Michigan issue, and as you know, I have joined 
with both my two Senators Levin and Stabenow to try and seek 
the full removal of PCBs at the Allied Superfund Site there in 
Kalamazoo. And we are concerned a little bit about the--and we 
join the local community for sure. There are still a number of 
issues yet to be resolved for which the feasibility study 
failed to account, such as a lack of recent data and monitoring 
of wells on site, the availability of alternative remediation 
technologies and the reuse and redevelopment options. Can you 
assure us that these outstanding issues are going to be 
addressed before EPA issues the preferred clean-up options, and 
specifically, how is EPA going to account for the communities' 
redevelopment plans moving forward? That is question one.
    Question two, as you know Mr. Waxman and I worked with many 
members of this committee to try and drive a consensus position 
on the RFS issue. We have done five white papers, a number of 
hearings, obviously bipartisan. We are looking for EPA to do 
their job as well. However, in recent years, EPA has been late 
in finalizing the rule, and in fact for 2014, EPA still has not 
finalized the rule, even though the deadline is usually 
November of the preceding year, as it is in this case. So when 
do you expect to finalize that RVO for 2014, and what are you 
doing to get back on schedule for 2015?
    Ms. McCarthy. OK. Let me quickly answer your questions. We 
certainly, Congressman, have heard from you and a number of 
others about the Allied Paper site, and I need to take a close 
look at that and look at a variety of alternatives. As you 
know, we are going to be preparing a final clean-up plan for 
the summer. In advance of that, we are going to have a hearing 
in the middle of April to take some more comment on this. We 
are going to look at more water sampling there, and we will 
make sure that we listen to all the concerns and address them 
when we put that final clean-up plan together. And I appreciate 
all the concerns that all the Congress and Senate has indicated 
to us but also the concerns of the communities around there.
    On RFS, we are hoping for a June timeline. If I can do it 
more quickly, I would like to. We need to get those final 
levels out. We have certainly heard from many folks on the Hill 
here that they didn't appreciate some of the proposal that we 
put out, that they thought we could have done a better job. We 
got a lot of comments. A lot of good data came in, and we will 
be taking advantage of that in the final proposal.
    Mr. Upton. And do you think you will be back somehow on 
schedule for 2015?
    Ms. McCarthy. That is a very good question. Hope springs 
eternal.
    Mr. Upton. You are not under oath.
    Ms. McCarthy. I am hoping we can do better. One of the 
things that we tried to do with this proposal was to try to 
provide more certainty moving forward. I think these big 
fluctuations and the levels tend to provide uncertainty in the 
investment community, and we certainly don't want that to 
happen.
    Mr. Upton. Thank you. Yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from California, Mr. Waxman, for 5 
minutes.
    Mr. Waxman. Thank you, Mr. Chairman. On Monday, the 
Intergovernmental Panel on Climate Change, or IPCC, released 
its multi-year report on the state of climate science. The 
world's leading scientists examined the peer-reviewed science 
and confirmed that climate change is already happening on , 
quote, all continents and across the oceans and will get much 
worse if we do not act.
    The report has been called a tale of two futures because we 
are at a crossroads. We have a choice to make. We can seize the 
moment by taking action to avoid the worst impacts of climate 
change and realize the benefits of transitioning to a clean 
energy economy, or we can decide, Mr. Chairman, not to act. The 
result will be runaway climate change with reduced crop yields, 
more heat waves and disease, decreased water availability, more 
extreme weather events and the mass extinction of many of the 
world's species.
    Administrator McCarthy, do you believe that there is an 
urgent need to act and that our actions now will determine 
whether we avoid the worst impacts of climate change?
    Ms. McCarthy. I do, sir.
    Mr. Waxman. Yet we hear a litany of arguments for why we 
shouldn't act. Some opponents of action argue that humans are 
not causing climate change. Should this argument persuade us?
    Ms. McCarthy. No, sir.
    Mr. Waxman. The IPCC says that there is at least a 95 
percent chance that humans have been the dominant cause of 
observed warming. And yet, that is not enough for this 
committee to feel the urgency.
    We have heard the claim that climate change has no cause. 
Does the science support this argument?
    Ms. McCarthy. No, sir.
    Mr. Waxman. The IPCC says that there will be significant 
economic impacts from sea level rise, flooding, extreme weather 
events, extreme heat, food insecurity and reduced access to 
drinking water.
    We often hear the claim that the U.S. emissions in the 
energy sector are lower than they have been in recent years. 
The implication is that no further action to reduce emissions 
is required. According to the world's leading scientists, is 
this implication true? Are we on track to avoid the worst 
impacts of climate change?
    Ms. McCarthy. No, we are not, sir.
    Mr. Waxman. Your answer is persuasive because much larger 
emission reductions are going to be required than we have been 
seeing recently, which probably has a lot more to do with our 
economic decline during the difficult times.
    Opponents of action also argue that requiring coal-fired 
power plants to control their carbon pollution is part of a war 
on coal. Is that accurate? Is there any way we can reduce our 
emissions by enough to avoid the worst impacts of climate 
change without controlling carbon pollution from power plants?
    Ms. McCarthy. Power plants are the largest stationery 
source of carbon, and it represents about a third of what we 
emit. It needs to be addressed.
    Mr. Waxman. The loudest voices against taking action have 
offered no alternative plan to protect our children and 
grandchildren from the ravages of climate change. Now, Mr. 
Chairman, it is time to choose our path. We could accept all of 
these excuses for inaction and do nothing. The result would be 
a climate catastrophe. Or we could choose to act now to address 
climate change.
    Administrator McCarthy, you are proposing to take 
reasonable action to address this threat, and you have my full 
support. I would be happy to yield to any of my colleagues on 
either side of the aisle because I have a minute left. If not, 
I will yield it back, and thank you, Chairman.
    Mr. Whitfield. Thank you, Mr. Waxman. At this time I 
recognize the gentleman from Illinois, Mr. Shimkus, for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to have 
you here, Administrator.
    Ms. McCarthy. You, too.
    Mr. Shimkus. In January, EPA entered a settlement agreement 
regarding coal ash in which the EPA agreed to finalize the June 
2010 proposed rule by December of this year.
    Ms. McCarthy. That is right.
    Mr. Shimkus. Will the Agency meet that deadline?
    Ms. McCarthy. Yes, we will.
    Mr. Shimkus. Does the Agency intend to finalize the rule 
under subtitle (d)?
    Ms. McCarthy. I can't answer that question, sir. The final 
proposal hasn't yet been developed.
    Mr. Shimkus. You understand our concern with the subtitle 
(d) issue in that----
    Ms. McCarthy. I certainly do.
    Mr. Shimkus. It is our analysis, there is no statutory 
authority to implement an enforceable permit program. Does the 
Agency have a strategy for addressing that tissue?
    Ms. McCarthy. Well, that is part of the consideration, the 
development of the final rule.
    Mr. Shimkus. Thank you. Now I want to turn to TSCA which we 
talked about a little bit before the hearing opened. What is 
the EPA budget to carry out TSCA in fiscal year 2015?
    Ms. McCarthy. Let me take 1 minute to pull that out. 
Thanks.
    Mr. Shimkus. And then the follow-up is how does that 
compare to 2014?
    Ms. McCarthy. EPA has identified $86.4 million and 332.6 
FTE for the TSCA program in the fiscal-year-enacted budget. 
This request is $90.4 million and 321 FTE. So it is an 
increase, sir.
    Mr. Shimkus. How many work plan chemicals has EPA completed 
action on so far and how many in fiscal 2014?
    Ms. McCarthy. We have issued five draft work plans for peer 
review. We are going to finalize those five in 2014. We have 
plans to release draft risk assessments for 19 additional by 
the close of 2015, and 10 of those are expected to have been 
made final.
    Mr. Shimkus. OK. Do you use current authority to collect 
user fees to carry out TSCA?
    Ms. McCarthy. Yes. We actually--TSCA provides limited 
authority for us to collect user fees. It restricts the amount 
that we collect per submission, and it requires those funds to 
go to the Treasury.
    Mr. Shimkus. And can you tell me, and if not later for the 
record, how much of the current budget is offset by user fees?
    Ms. McCarthy. It does not go back to EPA. So I do not know. 
Oh, I am sorry. I believe this year we anticipate $1.8 million 
as collected for new chemical submissions in a year. That is 
generally on average.
    Mr. Shimkus. EPA reviewed some 1,200 chemicals in 
prioritizing 83 substances for the Work Plan Chemicals Program. 
Does EPA have the expertise and the capability to prioritize 
substances in commerce for further review and assessment?
    Ms. McCarthy. We have capability of doing that, yes.
    Mr. Shimkus. And the follow-up here is how quickly can that 
prioritization be done?
    Ms. McCarthy. I can get back to you, sir. But as you know, 
there are 10,000 chemicals we are trying to deal with. The 
numbers we are talking about will not get us there, which is 
why we are looking at other capabilities and screening tools 
that we can develop.
    Mr. Shimkus. Yes, please talk--I think that is a great 
point. Obviously, I am kind of deep in this debate.
    Ms. McCarthy. Yes.
    Mr. Shimkus. So do you feel prioritization is critical in 
trying to resolve this backlog and really answer questions?
    Ms. McCarthy. I think it is important because we have--TSCA 
provides us some authority, certainly not to address the issue 
as robustly as we would like. We are looking at new 
technologies for prioritization based on the information we 
have today. We are also looking at a new technology that we are 
working in a very robust and transparent way to look at a 
computerized toxicology screening process that people think 
there is great value in. We will see. We are going through 
appropriate review of that.
    Mr. Shimkus. Right.
    Ms. McCarthy. But there has to be a better way for us to 
target our resources more effectively to protect public----
    Mr. Shimkus. And the toxicologists are really asking for us 
to use sound science in our ability to do this, and I would 
encourage you as we work through this process, prioritization, 
I think it is a have-to, and this is something we can do.
    Let me just take my remaining 20 seconds to just--I live in 
the St. Louis metropolitan area, although this is really a 
Missouri issue. But since I am on this committee, I would also 
like for you just to take a quick look or get briefed if you 
have not been on the Bridgeton landfill and the West Lake 
landfill, the Senators from the State of Missouri and my 
congressional colleagues. It is an interesting dilemma, and if 
you haven't been briefed on it, it probably is worth your while 
to do so.
    Ms. McCarthy. Sounds fascinating.
    Mr. Shimkus. I yield back my time. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from California, Mr. McNerney, for 5 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I want to thank the 
Administrator for serving at the EPA in a time of difficulty 
and sometimes hostility.
    Ms. McCarthy. Opportunity as well, sir.
    Mr. McNerney. Section 319 of the Clean Air Act defines an 
event as an exceptional event if it affects air quality, if it 
is an event that is not reasonably controlled or preventable 
and is an event caused by human activity. These are events 
which the EPA believes normal planning would not be applicable. 
And now California is in its third straight year of drought. 
Droughts tend to make air quality worse by having increased 
dust levels, by wildfires and there is no water to wash that 
away. Are droughts included in the EPA's list of exceptional 
events?
    Ms. McCarthy. The event itself is what we analyze, but we 
are certainly aware that drought can exacerbate these 
exceptional events, and we work with States to identify and 
opportunity to work together to actually excuse those if you 
will from being calculated as part of their attainment 
demonstration.
    Mr. McNerney. What length of time do you think the EPA 
would consider appropriate then when making exception in this 
case or these cases?
    Ms. McCarthy. Well, we work with the States to identify 
what kind of data we need, and then we work very hard to go 
through that data and provide decision points for them.
    We actually have done some really big improvements in how 
we work with States on these exceptional events, most notably 
wind events. We have recently completed a review of how we do 
the exceptional events, what data we require to streamline 
that, and we have been able to get off the books a number of 
uncertainties that the States were concerned about. We are 
going to be tackling other issues like fire as well in the 
future so that we can make sure that we recognize that the 
climate is changing, and we need a streamlined and more robust 
way of working on these issues together.
    Mr. McNerney. Good. Thank you. On another subject, last 
week the administration announced an interagency methane 
strategy. One component involves reducing emissions from the 
coal and gas sectors.
    Ms. McCarthy. Yes.
    Mr. McNerney. Why do you think it is important to reduce 
methane emissions?
    Ms. McCarthy. Yes. Methane is an extremely intensive 
CO<INF>2</INF> or source of carbon pollution, and it is 
important for us to get at methane emissions. It is also an 
opportunity to actually have some real impact in the short term 
over the changes we are seeing in climate.
    We are looking at that, and the President released a 
methane strategy, and that is a strategy that goes across the 
U.S. Government, and part of EPA's responsibility under that 
strategy is to look at the methane that is being emitted from 
landfills in context of our Clean Air Act obligations. It is 
also looking at coal mines. It is also looking at 
unconventional oil and gas development and how we can continue 
to work together as we have before to take advantage of new 
technologies that make the capture of that methane more 
effective.
    Mr. McNerney. Are these new technologies cost effective for 
the industry?
    Ms. McCarthy. Well, we have already issued a New Source 
Performance Standard that captures the volatile organic 
compounds in the emissions from unconventional gas when 
hydrofracking happens. Part of that captures the methane as 
well. It is very cost effective. In fact, it is one of the few 
rules that EPA has done at least in my tenure that makes the 
obligated parties money.
    Mr. McNerney. Good.
    Ms. McCarthy. It doesn't take it away because you can 
certainly reuse the methane and sell it.
    Mr. McNerney. Sure. As you know, we have conducted five 
hearings on the Toxic Substance Control Act. In one hearing, 
every single witness agreed the decisions on chemical priority 
should be based on human health safety, every single witness, 
11 total. In your opinion, does the discussion draft, Chemicals 
in Commerce, put human health safety first or are other 
considerations given higher prominence?
    Ms. McCarthy. Congressman, EPA hasn't done a complete 
assessment of any of the rules so far, but we are providing 
technical assistance to both the Senate and Congress on this 
issue. We will continue to do that, and we certainly have 
issued principles that put public health first and we would be 
evaluating consistent with those principles.
    Mr. McNerney. Well, it is important that the EPA have the 
authority in my opinion to evaluate chemicals. Would you agree 
that providing EPA with the necessary information of a chemical 
be mandatory before allowing it to enter commerce?
    Ms. McCarthy. That is the law now, and I believe that it 
should remain the law, yes.
    Mr. McNerney. Very good. How can Congress best ensure that 
the EPA is provided with the resources it needs to test and 
classify these chemicals?
    Ms. McCarthy. Well, we are requesting continued assistance 
under the current TSCA rule. We are also looking at developing 
new tools as I indicated before to prioritize. We need 
resources to be able to do that. And we are encouraged that 
Congress is looking at TSCA with some seriousness, but we 
certainly know that there is a long way to go before we can 
rely on a new rule and we have work to do in the meantime and 
we will keep doing it.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I recognize the gentleman from Nebraska, Mr. Terry, for 5 
minutes.
    Mr. Terry. Thank you, Mr. Chairman, and coming from 
Nebraska I may have a little bit of an ag angle. So the first 
question is I read with interest over the weekend a new 
proposed dairy rule regarding dairy operations and methane. And 
I was just wondering if, in the proposed methane, to reduce 
methane emissions by 25 percent by 2020. You have a look like 
you don't know that, but it was an article that was in Friday 
and Saturday's papers.
    Ms. McCarthy. What kind of rule is it? I am sorry. I did 
look a little befuddled.
    Mr. Terry. Yes.
    Ms. McCarthy. I apologize. Everything I think comes out my 
face. I look a little----
    Mr. Terry. I share the same trait.
    Ms. McCarthy. I looked befuddled because thankfully, you 
are not referring to anything that EPA has proposed. I do know 
that as part of the methane strategy, the USDA has identified a 
number of ways in which they think they can work with the dairy 
industry. We have been working with them all along on----
    Mr. Terry. Yes, the article----
    Ms. McCarthy [continuing]. Methane digesters----
    Mr. Terry [continuing]. Said EPA was involved.
    Ms. McCarthy. Only to the extent that we work on a 
voluntary program, not a regulation, to work with the farming 
community and agriculture, particularly dairy, where there are 
opportunities to have methane digesters so that you can 
recapture the methane, and they tend to use it for electricity 
generation on site.
    Mr. Terry. Yes, and I have seen some----
    Ms. McCarthy. And that is entirely, not a rule-making.
    Mr. Terry. OK. And there is just a couple of concerns with 
that that I will lay out, so as part of that one of the 
concerns deals with the smaller dairy operations because the 
digester, they are very expensive. And so the feedback that I 
received over the weekend and on Monday was that if you are a 
dairy operation of about 300 head, then you can't meet that. So 
I just wanted to put on the table that requiring--because 
mostly when farmers hear voluntary, they know it is followed up 
with mandatory. That is their----
    Ms. McCarthy. Well----
    Mr. Terry. You may be able to come up with instances it is 
not but----
    Ms. McCarthy. I know I should never speak for one of my 
colleagues on the Cabinet, but I think I can safely speak for 
Secretary Vilsack that he is really talking about a 
collaborative process to take a look at how we can assist the 
dairy industry in this venture. No one at this point that I 
know of is talking about anything in a regulatory context.
    Mr. Terry. I hope not. I appreciate that but----
    Ms. McCarthy. Me, too.
    Mr. Terry [continuing]. That is something I would resist. 
In that regard then also one of the other issues that is 
brought up a lot is the groundwater, and there is some proposed 
rule that is viewed in our ag industry and by me as another way 
to get at water runoff. There is a list of 50 rules that they 
can use to comply, and again, it is voluntary as I understand.
    Ms. McCarthy. Let----
    Mr. Terry. Explain that, how that works----
    Ms. McCarthy [continuing]. Me just quickly----
    Mr. Terry [continuing]. Because it sounds like a backwards 
way----
    Ms. McCarthy. No
    Mr. Terry [continuing]. Of just trying to get around two 
previous Supreme Court decisions to----
    Ms. McCarthy. No, it is actually trying to implement them. 
It is called the Waters of the United States, and we can spend 
some time on this if you would like----
    Mr. Terry. All right.
    Ms. McCarthy [continuing]. And I would be happy to talk to 
your community on this. But I think we did a pretty good job. 
Number one, we made it very clear it does not regulate ground 
water. That is not its business. It is clearly stated. For the 
reason why, the same reasons you are raising it is to address 
those concerns. And the 50 practices are actually agricultural 
practices that we are defining as exempt from the jurisdiction 
from the Waters of the United States.
    Mr. Terry. Right.
    Ms. McCarthy. And we are inviting a process for more of 
those to be identified. So we are doing the best we can to 
identify and to provide more certainty while allowing farmers 
to do the work they need to do for all of us.
    Mr. Terry. Yes, they would disagree with the certainty of 
what they have to do now. The other part is last week in a 
hearing there was a question about whether or not the 
agricultural exemptions apply to Section 404 or 402. Have you 
been able to clarify that for us as well?
    Ms. McCarthy. Yes, 404 only.
    Mr. Terry. 404 only?
    Ms. McCarthy. Yes.
    Mr. Terry. Very good. Last, this is a little snarky but it 
comes up a lot.
    Ms. McCarthy. OK.
    Mr. Terry. What is the budget to rent for planes, to fly 
over feed lots in Nebraska?
    Ms. McCarthy. First of all, we don't do drones, so the 
budget for that is zero. We do use flyovers at times to 
basically as a screening mechanism. I do not know what those 
budgets are, sir.
    Mr. Terry. All right. Thank you. I yield back my 4 seconds.
    Mr. Whitfield. The gentleman yields back. This time I will 
recognize the gentlelady from California, Ms. Capps, for 5 
minutes.
    Mrs. Capps. Thank you, Mr. Chairman, and Administrator 
McCarthy, thank you for your testimony and for being here 
today. I have a couple topics for sure I would like to get on 
the table, and the first one is off-shore fracking.
    Ms. McCarthy. Yes.
    Mrs. Capps. As you know, numerous fracks have taken place 
from off-shore platforms in Federal waters off the coast of 
California in recent years. Many of these fracks have been in 
the sensitive waters of the Santa Barbara Channel which is in 
my congressional district.
    While we know very little about the impacts of on-shore 
fracking, we really know far less about off-shore. And that is 
why I called on the EPA and the Department of the Interior last 
November to place a moratorium on these off-shore activities 
until a comprehensive environmental review is conducted and 
considered.
    I know EPA included new disclosure requirements in its most 
recent discharge permit for these off-shore platforms, and I 
commend you for taking this important step. But this is the 
catch right now. Much more is needed, and under this new 
general permit, operators only need to report the type and 
amount of chemicals in their wastewater after it has already 
been discharged into the ocean. As a result, regulators like 
EPA and the California Coastal Commission cannot review these 
discharges on a case-by-case basis in anticipation of the 
fracking happening, rather than after the fact.
    So Administrator McCarthy, would you consider modifying 
this discharge permit to require a case-by-case review of these 
fracking discharges?
    Ms. McCarthy. Well, the general permit that we issued under 
the law allows us to reconsider that and take a look at new 
data. We are more than happy to work with you. We think that 
the general permit that we put out was a sensible approach, 
given the authority that we have under the law. It also 
requires that the certain standards that are achieved in this 
effluent that is emitted that may contain hydrofracking, that 
that is appropriately tested to ensure that it doesn't damage 
aquatic life. But if you have concerns, we are always available 
to sit down and talk through those, and if changes are 
necessary, the law allows changes to be made.
    Mrs. Capps. Great. And I do look forward to that. I think 
such a modification would be important and look forward to 
continued discussion on that topic.
    Here is another topic. Climate change, as you know, is 
already having serious impacts on our environment, on our 
infrastructure and on our public health. Representing a coastal 
district as I do, I am particularly concerned by one of climate 
change's lesser understood impacts, ocean acidification.
    Ms. McCarthy. Yes.
    Mrs. Capps. The coastal communities in my district depend 
on healthy oceans and coastal ecosystems for their livelihoods, 
for recreation and much more. So changing ocean chemistry, 
particularly in the coastal zone where much of this economic 
activity takes place, has a direct impact on my constituents.
    The just-released IPCC, Intergovernmental Panel on Climate 
Change, report on climate change highlighted several factors, 
including runoff and other pollutions, that are magnifying the 
impacts of ocean acidification at the local level.
    What is EPA doing to identify coastal areas that are of 
particular risk for ocean acidification, and if you can, tell 
us what is being done or can be done to help make these 
communities more resilient going forward?
    Ms. McCarthy. Yes. Yes, I think one of the most important 
messages from the recent IPCC, other than the increasing 
certainty around the science, it was the highlighting of ocean 
acidification as a clear concern. And we have, across the U.S. 
Government, a number of agencies who are on point to look at 
that issue, most notably NOAA, who has expertise and others, 
and we are working across the Federal Government at 
understanding the science and its implications.
    On the resiliency side, every agency has developed an 
adaptation plan. We also have a Resiliency Task Force that is 
looking at this from a national level. We need to make sure 
that our communities at risk understand that risk, are prepared 
to act when risk happens and that also we are looking at the 
designs that we can put into our infrastructure that prevent 
water from creating the same kind of concerns that we have seen 
in the past. So we are working to mitigate carbon emissions. We 
are looking at also addressing, hand in hand with communities, 
how we can keep them safe in the face of a changing climate.
    Mrs. Capps. Do you see pieces of the President's budget 
allowing for this? And also--you are nodding so I will take 
that as an answer----
    Ms. McCarthy. Yes.
    Mrs. Capps [continuing]. But also say to our chairman in 
conclusion that a hearing on climate change adaptation and 
resiliency or an aspect of that I think would be most 
appropriate for this committee because these Federal agencies, 
as the Administrator just said, are going ahead and working on 
it. I think we need to be apprised, but also there might be a 
role that we would want to play working with you. And I yield 
back the balance of my time.
    Mr. Whitfield. The gentlelady yields back. Thank you. At 
this time I recognize Dr. Cassidy from Louisiana for 5 minutes.
    Mr. Cassidy. Welcome, Administrator.
    Ms. McCarthy. Hello.
    Mr. Cassidy. I am from Louisiana, so as you might guess I 
am interested in the export of liquefied natural gas. Sempra 
has a plant that they are seeking approval for to build but 
need clearances. A Reuter's article yesterday spoke about how 
EPA had issued something to FERC asking them to consider 
whether approving LNG export would increase methane release, 
carbon footprint, if you will, by increasing the demand for 
more natural gas drilling.
    Now this interests me in a couple ways. One, I think it 
reflects we know that natural gas is replacing coal which has a 
better carbon footprint than coal. Now, if EPA is objecting 
that there would be more gas released in the Haynesville shale 
of Louisiana, so therefore we shouldn't do it, in my reading it 
seems to reflect a limited understanding of the positive 
impacts that it has, not just on our U.S. economy creating jobs 
for those who do not have but also on the world economy and 
frankly on the carbon footprint of the world economy. Any 
thoughts on that? I mean, why would EPA be weighing in on this?
    Ms. McCarthy. Congressman, actually EPA did not oppose any 
objection, and we didn't recommend that this needed to be done 
in any way. It was part of the normal environmental process in 
which we identify all impacts. And so we were not weighing in 
relative to whether this was good, bad or indifferent related 
to any other----
    Mr. Cassidy. Now, the first paragraph--so maybe I have a 
misunderstanding of the Reuter's article. The U.S. 
environmental regulator raised concerns that a Federal review 
of Sempra's Energy liquefied natural gas export project did not 
include an assessment of potential effects of more natural gas 
drilling. It goes on to say that, you know, increased natural 
gas extraction would potentially increase carbon footprint.
    So even though the article is kind of written to construct 
that you were opposing if you will----
    Ms. McCarthy. No, we raise this type of--it is just raising 
that these are part of the things that you might think about. 
We did not recommend it. We did not make an argument for it, 
and it is something that we raise in many of our environmental 
assessment reviews.
    Mr. Cassidy. OK.
    Ms. McCarthy. I think they might have put it in a much 
stronger context and clearly did than EPA raised it.
    Mr. Cassidy. Then let me ask you this. I visit the Petra 
chemical plants in South Louisiana which made gasoline, for 
example, for Northeast United States.
    Ms. McCarthy. Yes.
    Mr. Cassidy. And they pose an interesting question. EPA has 
demanded that sulfur be extracted from oil, but it takes 
natural gas to do so and it raises the carbon footprint of the 
facility to--the process of extracting the sulfur raises the 
carbon footprint of the community or of the facility. And they 
really feel like they are getting caught both ways. On the one 
hand, they have to extract the sulfur, but on the other hand, 
you increase your carbon footprint. Again, your thoughts on 
that?
    Ms. McCarthy. Well, actually, if you take a look at the 
rule that we did which is called Tier 3, it looks at and 
recognizes these tradeoffs, but it also recognizes that the 
low-sulfur fuel provides an opportunity for tremendous 
greenhouse gas reductions in vehicles because it opens up 
opportunities for better catalytic converters, better engine 
technologies.
    Mr. Cassidy. I totally get that. So my understanding----
    Ms. McCarthy. So on the whole, right now, I think we 
understand that the refineries have weighed in on this issue. 
We have considered it. It is in the assessment, and I think we 
have appropriately addressed it. And no refinery right now is 
being----
    Mr. Cassidy. Tasked?
    Ms. McCarthy [continuing]. Tasked with taking a look at 
this issue individually.
    Mr. Cassidy. Now, let me ask you because also, and again, I 
don't know, I am asking.
    Ms. McCarthy. Yes.
    Mr. Cassidy. Sometimes they have to get a permit from one 
of your regional offices in order to expand capacity. But 
again, if they are having to raise their carbon footprint----
    Ms. McCarthy. No.
    Mr. Cassidy [continuing]. In order to lower sulfur, is this 
taking into account the kind of whole system approach? Well, 
wait a second. Yes, you have done that. You have lowered the 
carbon footprint of vehicles, so therefore we will allow you a 
higher carbon footprint at the facility. Is that what is being 
said?
    Ms. McCarthy. Well, the good news is I think, Congressman, 
that in our assessment in working with the refineries 
themselves, the facilities don't need to make large capital 
investments and----
    Mr. Cassidy. But I have been told at least locally----
    Ms. McCarthy. If they do for pollution control equipment, 
there are appropriate exemptions for that, and we work through 
them.
    Mr. Cassidy. At least in times past there have been 
limitations on the expansion of some of the facilities in my 
district because of concern over greenhouse gas emission. And 
so again, my concern is that one set of restrictions is setting 
them up to be denied the ability to expand.
    Ms. McCarthy. I am happy to work with you on it if there is 
an instance where this is coming up.
    Mr. Cassidy. OK.
    Ms. McCarthy. I am not aware of it, but we will work 
through it.
    Mr. Cassidy. Thank you, Ms. McCarthy.
    Ms. McCarthy. Thanks.
    Mr. Whitfield. At this time I would like to recognize Dr. 
Christensen from the Virgin Islands.
    Mrs. Christensen. Thank you, Chairman Whitfield. Good 
morning, Administrator McCarthy and welcome.
    Ms. McCarthy. Good morning.
    Mrs. Christensen. You know, I appreciate the efforts being 
made to streamline the Agency and to meet your missions, yet 
that mission of protecting the public health and the 
environment. But there are many in the House and on this 
committee who would rather just starve EPA to death, and 
considering that your budget is lower as I understand it than 
the 2003 enacted budget just seems to help that process.
    Back home in St. Croix in my district in the USVI, one of 
my high schools is closed after noxious fumes sickened children 
and teachers, and individuals were sent to hospital, and that 
was the third time in a month. EPA has responded, and we thank 
you for that. But we need to know that you will be able to 
respond if this happens again this year, next year or the year 
after and that you would be able to help us with providing 
monitoring that would be long-term monitoring because that is 
not the first time this has happened either at this school or 
in the surrounding communities.
    The budget with the decreases don't give me that assurance. 
In your testimony you say that the budget furthers 
environmental justice efforts, and we are glad to hear that 
you, too, and you partner with the States and the tribes and I 
am assuming--I shouldn't assume. I hope that includes the 
territories.
    But many districts like mine are struggling with economic 
downturns and budget deficits. So we don't have much to 
contribute. How successful do you think EPA can be in 
furthering its commitment to environmental justice and other 
priority goals given that many States and territories just 
don't have the resources?
    Ms. McCarthy. Well, I think the good news in this budget is 
that we have increased our request for these categorical 
grants, the STAG grants that go to our States, and certainly it 
will impact your community as well. But we also are really 
focusing on prioritizing our efforts in a couple of different 
ways. One is the issue of environmental justice, and it is 
important for us to recognize because these are challenges that 
are not only a fairness question but they point to areas where 
our intervention would be most beneficial from a public health 
perspective. So we are working very hard to get the tools and 
the policies in place that help us prioritize and direct our 
efforts in that way.
    But part of the challenge here is we have to recognize 
budget realities, and we are trying to do that. But at the same 
time we are trying to take advantage of new technologies and 
practices so that we can have our people available to answer 
when schools call and not be at every facility measuring the 
stack. There are new technologies that can help us remotely 
monitor. We have an E-Enterprise system that is going to get us 
out of paperwork and into this century to do electronic data 
exchanges and to have that data publically available.
    This is a whole new way that we are trying to shift our 
ability of our Agency to understand the value of new 
technologies and how they can change the way we do business so 
that human beings see human beings when they need to.
    Mrs. Christensen. Well, thank you. I am somewhat reassured 
by your response, and I hope that at the very least, you get 
all of the budget that you are asking for. But I would have 
preferred----
    Ms. McCarthy. I know.
    Mrs. Christensen [continuing]. To see some more. Another 
area, a proposed cut that is most troubling is the defunding of 
the Beaches Protection categorical grants and the implications 
of this are coastal economy and public health. We rely on our 
beaches and oceans as a source of recreation but also as a 
major economic driver. In 2011 alone there were 23,481 beach 
closures and advisories issued in this country, and if we stop 
conducting beach sampling, it will be impossible for us to know 
of pollution problems, and as a result we won't be able to 
address them. And cutting these important funds could mean 
fewer tests for bacterial levels and fewer people informed when 
the water is unhealthy.
    In my district close to 3 million visitors come to our 
shore by air and cruise, and about that number came in 2013. 
And that is a lot of people to be affected, and this doesn't 
even factor in the residents who depend on these resources the 
most.
    So Administrator, there have been some discussions that 
State-level organizations are expected to begin to take on 
these efforts. Has EPA done any analysis of how defunding the 
beaches program will affect States and territories and do we 
know if localities are prepared to assume this important 
responsibility?
    Ms. McCarthy. Yes, I am more than happy to provide you with 
additional background on that. We have three program 
eliminations in this budget that total $37 million. One is our 
radon grants to States. The second is the Beach Monitoring 
Program, and the third is the DERA fund, our Diesel Emission 
Reduction fund. And you know, these are difficult choices for 
me, and I know that they will be. At least the thinking behind 
the Beaches Monitoring Program is that there is a level of 
expertise and technology that has been built up in States that 
can allow this transition to happen. It also is in the context 
of a $76 million increase in categorical grants on the whole to 
States that we hope will be prioritized by those States 
effectively.
    But I understand that there are concerns raised on these 
issues, and I will certainly wait to hear from Congress in 
terms of their understanding of these and whether or not this 
is the appropriate way to do our budget.
    Mrs. Christensen. Thank you. Thank you, and I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Louisiana, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing, and Ms. McCarthy, Administrator McCarthy, 
I appreciate you being here with us to talk about the budget 
and obviously the impacts that that budget will have.
    When I look at your budget, it seems EPA spent a 
significant portion of that budget on rule-making activities. 
In your testimony you say that EPA will focus resources on 
developing achievable greenhouse gas standards for power 
plants.
    Now, when I look at the track record that EPA has had on 
the rule-making and especially on projections on the kind of 
impacts those rules would have, it raises some serious 
questions. I want to ask you, in 2012, EPA said that its 
utility MACT rule would not result in significant plant 
shutdowns. On February 8 of 2012, you testified that EPA's 
analysis showed that only 4.7 gigawatts of capacity would be 
retired as a result of utility MACT when in fact I think you 
further said that removal of this capacity ``will not adversely 
affect capacity reserve margins in any region of the country.''
    And so when you look at the reality of utility MACT, it is 
responsible for hundreds of coal plants being shut down 
nationwide. In fact, a group has estimated that nearly 51 
gigawatts, or about 330 coal units in 30 different States, have 
been shut down or converted into a different fuel because of 
the EPA's rule. So when you projected in 2012 4.7 gigawatts 
would be retired, in fact, the numbers show it is closer to 51 
gigawatts. In fact, the U.S. Department of Energy estimates 
that approximately 54 gigawatts of coal-fired capacity will 
retire by 2016.
    So when you look at this track record, as you all make 
rules, it seems your predictions of what will happen are so far 
off and to the detriment of American consumers. When these coal 
plants are being shut down, people are paying more for their 
electricity because of the results of your actions. So you are 
out there making all these rules. You are making all these 
projections of what these rules will do and the impacts have, 
and it seems that you are so far off. So can you explain EPA's 
failure to accurately assess the real-world implications, 
especially as it relates to utility MACT?
    Ms. McCarthy. I am happy to talk about this. The numbers 
that you are quoting are numbers of closures that result both 
from the increased inexpensive natural gas, the inability for 
coal in many areas to compete and consumers wanting to spend 
less money for their electricity, much more than it is 
accountable to one particular rule, in this instance.
    Mr. Scalise. So you are saying that these coal plants that 
are being shut down aren't because of your rules?
    Ms. McCarthy. That is correct. The vast majority----
    Mr. Scalise. That is what they are saying, if you are 
listening to what people are saying in the real world.
    Ms. McCarthy. That is what I am saying, is that what we 
estimated was the incremental impact from MACT, we did not say 
that there wasn't a transformation in the energy world----
    Mr. Scalise. I mean, President Obama himself said----
    Ms. McCarthy [continuing]. Wouldn't change.
    Mr. Scalise [continuing]. That he wants to bankrupt coal. 
It is not like there is some secret out there.
    Ms. McCarthy. Who said that?
    Mr. Scalise. President Obama when he was running for 
president. He talked about, you know, utility costs 
skyrocketing----
    Ms. McCarthy. I think the President has been clear in an 
all-of-the-above strategy, and that includes----
    Mr. Scalise. All of the above? He is against everything 
below, it seems in his strategies. When you look at what is 
happening with coal, I mean, I hope you are not trying to say 
there is not a war on coal? I mean, there is clearly a war on 
coal.
    Let me read you a quote from Barack Obama. I mean, you are 
putting words in his mouth. The problem is he said things very 
different, and he is pushing things very differently. In fact, 
you are carrying things out differently than what is being 
purported. The President said, ``So if somebody wants to build 
a coal plant, they can. It is just that it will bankrupt them 
because they are going to be charged a huge sum for all that 
greenhouse gas that is being admitted.'' That is was Barack 
Obama in 2008 when he was running for president. He said, ``It 
is just that it will bankrupt them'' to build a coal plant.
    So clearly, he has had this agenda for a long time, whether 
you recognize it or not.
    Ms. McCarthy. Mr. Scalise, the Mercury and Air Toxics 
Standard is a standard on toxic emissions like mercury and 
arsenic. It has nothing to do----
    Mr. Scalise. Well, let me ask you this----
    Ms. McCarthy [continuing]. With greenhouse gas----
    Mr. Scalise [continuing]. Because we are talking about 
greenhouse gas emissions and you know, it used to be called 
global warming.
    Ms. McCarthy. Yes.
    Mr. Scalise. And then all of a sudden we had the worst 
freeze ever. I mean, it was so cold a couple of weeks ago the 
polar bear could not go outside in Chicago because it was so 
cold. So now the term is no longer global warming, it is 
climate change.
    You got Secretary of State John Kerry, climate change is as 
big a threat as terrorism, the Secretary of State saying 
climate change is as big a threat as terrorism. We are running 
coal out of this country, coal jobs, the coal itself. It is 
going to foreign countries, by the way, that emit more carbon 
than we do here in America today without all of your standards 
that you are trying to change that are killing jobs, jacking up 
people's electricity rates. The impacts are so devastating.
    So do you at least acknowledge that if that coal that used 
to be burned here to provide fuel is being shipped to another 
country, and in many cases they are emitting four or five times 
the amount of carbon in those other countries, do you have a 
concern about the impact on the climate when those policies are 
actually resulting in even more carbon being admitted into the 
atmosphere when you run those jobs to other countries?
    Ms. McCarthy. I have two concerns. One is the concern to do 
what I can within the authority of the law that is technically 
available to reduce carbon pollution in the United States, and 
I have a concern that that provide the United States an 
opportunity to leverage additional reductions internationally 
so we can have a comprehensive, global strategy to address what 
I believe is----
    Mr. Scalise. So what is happening in the real world, you 
are not concerned that it is devastating our economy and it is 
actually increasing the amount of carbon emitted in the 
atmosphere because those other countries emit even more than is 
done here.
    Mr. Whitfield. The gentleman's time----
    Mr. Scalise. Well, it is the real world. I yield back----
    Mr. Whitfield. The gentleman's time is expired.
    Mr. Scalise [continuing]. The balance of my time.
    Mr. Whitfield. At this time I recognize the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman, and 
Administrator, thanks very much for being with us today. I 
really appreciate you being here to answer questions today.
    And I know some of the members on this committee have heard 
me say this before, but I always like to talk about what my 
district looks like and the concerns that we have back home.
    I represent 60,000 manufacturing jobs. Interesting enough, 
I also represent the largest agricultural district for the 
State of Ohio. And when I go out and literally meet with the 
hundreds of businesses that I have seen and talked with over 
the last couple of years that the number one issue that I 
always hear from my businesses out there is on regulations. 
That is the top question, problem, they run into.
    But when I ask them, OK, what regulations are you always 
talking about, it always comes down to the EPA are the toughest 
things for them to have to try to comply with. And so as we are 
talking about those issues out there, one of the things of 
course that comes up, we want to have people expanding their 
businesses and employing more people. And the question then is 
would you agree that it is more difficult for these businesses 
that I have and across the Nation like this to build new 
factories or manufacturing facilities in areas that don't meet 
the national Ambient Air Quality Standards?
    Ms. McCarthy. There are different requirements. Whether it 
is more difficult or not I can't answer, sir.
    Mr. Latta. Well, let me go on because--for example, it is 
easier to build a factory in an area that meets those existing 
ozone standards than the nonattainment area, and you know, 
especially when I look around Ohio, one of the interesting 
things is you can be in one county and be out of attainment and 
literally put a factory across that next county line and be in 
attainment. Now, I don't want to say that I want to see that 
county that was able to get that factory to say, well, let us 
put them out of attainment. But these are the things that, you 
know, these businesses are facing out there, and I want to also 
make sure that we can get the folks out there to employ more 
people.
    And is the EPA currently considering lowering the existing 
ozone standards?
    Ms. McCarthy. We are currently in the process of doing the 
5-year review that is required under the Clean Air Act, and it 
is now being currently considered by the Clean Air Science 
Advisory Committee.
    Mr. Latta. OK, and if the EPA does lower the standards, 
will that expand the number of areas in the country that are 
going to go into nonattainment?
    Ms. McCarthy. Sir, we will have to take a look at what the 
Clean Air Science Advisory Committee says and what the data 
says, and we will see what the decision of the Administrator 
has.
    Mr. Latta. OK, so if we see more going in there, so we are 
going to have it that more areas in the country, it is going to 
be much more difficult to build more factories that are going 
to employ more people if these standards are lowered. Is that 
correct?
    Ms. McCarthy. I can't answer the question because there 
would be different standards that are required, but I do not 
know whether it would be more difficult for an industry to 
develop there as opposed to a place that is in attainment.
    Mr. Latta. OK. And even though, you know, in the State of 
Ohio, we have been very fortunate with the Utica shale being 
developed in the eastern part of the State, Ohio is still 78 
percent coal-based in our electric generation. In 2010, the EPA 
proposed ozone standards that were subsequently withdrawn at 
the President's direction, but that would have placed 77 to 96 
percent of the counties in the United States with ozone 
monitors in nonattainment. Is the EPA currently considering the 
same potential revisions to our ozone standards from that 77- 
to 96-percent level? Did you understand the question?
    Ms. McCarthy. I am sorry. I didn't exactly understand the 
question.
    Mr. Latta. OK. Back in 2010----
    Ms. McCarthy. Yes.
    Mr. Latta [continuing]. These were withdrawn, but at that 
time, under the President's direction, they would have placed 
77 to 96 percent of the counties in the United States with 
ozone monitors----
    Ms. McCarthy. Oh, I see.
    Mr. Latta [continuing]. And nonattainment.
    Ms. McCarthy. I see. This is what I do know, is that the 
policy assessment in the Clean Air Science Advisory Committee 
is looking at ranges that are not dissimilar to what the 
reconsidered proposal was looking at, and I do not know what 
that would translate into in terms of nonattainment areas 
because that is always based on the last 3 years of certified 
data. So I can't exactly say, but it is a similar review that 
is going on now to what we looked at during the re-proposal.
    Mr. Latta. OK. Well, let me just follow up then because do 
you then think that that would be acceptable to adopt those 
revised ozone standards that would put let us just say 96 
percent of the counties with ozone monitors in nonattainment, 
or at 77 percent?
    Ms. McCarthy. It is not acceptable or unacceptable, sir. I 
wouldn't be making a decision on the basis of the science 
related to what the protective standard needs to be under the 
law.
    Mr. Latta. Mr. Chairman, I see my time has expired, and I 
yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from New York, Mr. Engel, for 5 
minutes.
    Mr. Engel. Thank you very much, Mr. Chairman, and welcome, 
Administrator McCarthy.
    Ms. McCarthy. Thank you
    Mr. Engel. Thank you for the good job you are doing, Ms. 
Froehlich, as well. I have three issues. I am going to see if I 
can talk fast and get them all in, but one is about fracking in 
my home State of New York----
    Ms. McCarthy. Yes.
    Mr. Engel [continuing]. And Upstate New York. It is a big 
point of contention. Some say it will create lots of jobs. 
Others are worried about the safety of it. Some argue that the 
EPA's real goal is to prevent or slow natural gas development 
in the United States. Some say that additional studies aren't 
necessary given industry's long track record of using this 
technology. So how do you respond to those things and how will 
the hydraulic fracking study help achieve, you know, the 
objective that it is supposed to achieve?
    Ms. McCarthy. Well, the President I think has made it clear 
that the process of fracking has really opened up opportunities 
for clean, natural gas, but it has to be done safe and 
responsibly. And what EPA is doing right now is the research it 
needs to do to understand what the potential impacts are to 
ground water as well as looking at what technologies are 
available to support the recapture of methane so that we are 
addressing that as an intensive climate-warming compound. And 
we will keep working through these issues. But we are trying to 
establish the science foundation that we can share with the 
outside community to ensure that natural gas is done safe and 
responsibly.
    Mr. Engel. Thank you. I have a very parochial issue 
involving my district. It is the Hillview Reservoir, and in 
accord with Federal Long-Term 2 Surface Water Treatment Rule, 
the EPA sought to have New York City----
    Ms. McCarthy. Yes.
    Mr. Engel [continuing]. Build a concrete cover over the 
Hillview Reservoir in Yonkers. My district goes from New York 
City through Yonkers. That reservoir is in my district. I was 
one of several members of the New York delegation that wrote to 
Administrator Lisa Jackson urging a waiver of the regulation as 
it applies to Hillview, and EPA subsequently agreed to initiate 
a review process for the regulation requiring covers on 
reservoirs such as Hillview.
    So I am wondering if you could please provide me with an 
update or at least get back to me on the status of that review 
process?
    Ms. McCarthy. I do know that this issue has come up to 
everybody's attention that Region 2 is working with New York 
City on it, but I will provide you an update on how the rule is 
being looked at.
    Mr. Engel. There are just some mandates that just don't 
make sense that are--
    Ms. McCarthy. Yes.
    Mr. Engel. --costly, and the benefits are very, very minor 
compared to what the cost is.
    Ms. McCarthy. We are just trying to get at the public 
health impacts, and if there is a better way to do that, we 
will be wide open to it.
    Mr. Engel. All right. Thank you. And my last one is about 
revolving funds. States are able to provide low-cost financing 
for a wide range of water quality infrastructure projects 
through the Clean Water, and Drinking Water State Revolving 
Funds in New York has received lots of money through the years 
to protect our watersheds and make upgrades and repairs to our 
sewer systems. I certainly support all of that.
    But despite these investments, EPA's most recent drinking 
water infrastructure needs survey indicates that New York will 
require approximately $29 billion over 20 years to ensure 
continued delivery of safe public drinking water. New York has 
aging sewer and water systems. They are in desperate need of 
repair and upgrade or they will pose significant environmental 
and public health problems. So I think that is important. It 
also represents an economic opportunity because we can put 
several thousands in New Yorkers back to work over the next 
several years helping to do that. But when we look at the 
President's fiscal year 2015 budget, it proposes a $580 million 
reduction to the State Revolving Funds from this year, and I 
think that is not obviously very good. So I want to just say 
that.
    And I want to also ask you setting aside environmental and 
public health issues, please explain the economic and jobs 
benefits of investing in water infrastructure, and tell me how 
these cuts to the State Revolving Funds would impact these 
benefits.
    Ms. McCarthy. Yes. We have had to make some difficult 
choices. Clearly the State Revolving Fund is important for 
public health as well as for jobs. I mean, clearly it keeps 
people employed. It prevents major illnesses from occurring. It 
helps protect our rivers and streams and natural places. So it 
is extremely important.
    But the choices we needed to make are ones that I know that 
you will consider strongly. But we had to look at how we have 
been capitalizing this fund, what opportunities there are for 
the revolving fund payments to be in the system and also 
supporting this effort and also recognize that this 
administration over the past 5 years has already invested $20.7 
billion in SRF. That compares to 8 years of history in the 
prior administration were $17.2 billion has been invested.
    Now, that doesn't mean that me, individually, wouldn't like 
to see lots more money to this effort for public health 
purposes and certainly because of the economic growth. But 
there are difficult decisions to be made. We did the best we 
could, and we will certainly listen to what Congress says.
    Mr. Engel. Thank you very much. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you. At this time I recognize the 
gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair, and Ms. McCarthy, I would 
like to keep the conversation going that my colleague from 
Ohio, Mr. Latta, had about NAAQS, National Ambient Air Quality 
Standards and ozone. America has come a long way in improving 
air quality, but counties nationwide are hitting the limits of 
what they can do. VOC offsets are now $238,000 per ton in my 
home State of Texas, and that is if they can get the offsets. 
Without offsets, new factories, new power plants and almost 
anything new that creates jobs becomes impossible. If you stop 
cutting the fat, you are cutting to the bone. And EPA's rules 
are getting tougher. EPA recently pushed the particulate 
standard lower. Ozone is next. EPA is headed to court next week 
to settle with the environmental activists on a new ozone rule. 
It should be out by December.
    EPA is looking to lower the ozone standard from 75 parts 
per billion to as low as 60 parts per billion. A few years ago, 
your cost estimate, yours, for doing that was $90 billion per 
year, almost $1 trillion over 10 years. That is a killer for 
the economy.
    Please pull up the slide for me, my friends.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0780.006
    
    Mr. Olson. Here it comes. This slide shows the few counties 
that meet the 60 billion parts-per-billion rule. Only five 
national parks would be in attainment at 60 parts per billion. 
Even at 65 parts per billion, this will likely be the most 
expensive rule in American history.
    We can only cut emissions so far. Natural sources, like 
forest fires and lightning, create these pollutants. We have 
foreign sources, too. Next slide, please.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0780.007
    
    Mr. Olson. The New York Times declared, ``A New East Asian 
Import: Ozone.'' This slide shows the tsunami of Chinese ozone 
swarming over our West Coast. Chinese pollution puts our homes 
out of compliance, even under the current caps. On top of all 
this, we still have to grow our economy. Communities can't 
create new jobs if they can't expand. In homage to Chairman 
Emeritus Dingell, I have some yes-or-no questions.
    Will you commit to include in any NAAQS standards a 
proposal to keep the current standard? Yes or no.
    Ms. McCarthy. I cannot make that commitment, sir.
    Mr. Olson. No commitment? OK. Is EPA allowed to consider 
economic costs in setting new NAAQS? Yes or no.
    Ms. McCarthy. That answer is no.
    Mr. Olson. No? Will EPA consider job losses? Yes or no.
    Ms. McCarthy. We will assess them.
    Mr. Olson. OK, and will EPA consider feasibility, economic 
feasibility?
    Ms. McCarthy. In the establishment of the standard? No, 
sir.
    Mr. Olson. Will you do this before December? Yes or no. New 
standards before December?
    Ms. McCarthy. I do not know, sir, because I don't know the 
results of the court case.
    Mr. Olson. OK. If I can just move on, ma'am, I am running 
out of time here. But we can't shut down the economy or energy 
production. We can't end natural and foreign pollution, and we 
all know it is impossible to have zero smog and zero 
particulate matter. So very briefly, does EPA have a way of 
striking the balance between air quality and achievability?
    Ms. McCarthy. The Clean Air Act does not ask States to 
reduce background levels.
    Mr. Olson. OK. I want to follow up on a comment. You 
touched on this issue with my colleague from California about 
exceptional events, to get any relief from penalties if 
pollution is outside of their control. Of the 10 exceptional 
events waiver requests, my State is saying EPA has approved 
zero of them, zero. Other States have the same problems. Do you 
commit to having a follow-up conversation with this committee 
on the broken exceptional event system? Yes or no.
    Ms. McCarthy. We are having those discussions with States 
as we speak.
    Mr. Olson. This committee then? This committee, commit to 
this committee, have these discussions right here?
    Ms. McCarthy. I will wait on what the chair asks.
    Mr. Olson. OK. We will work on that. Thank you. I yield 
back.
    Mr. Whitfield. Mr. Olson, thank you. I am glad you raised 
this issue because as you said, there are lot of areas out of 
compliance with the Ambient Air Quality Standard today, and 
they are going to make this more stringent. It is probably not 
going to be until after the election. But if you are not in 
compliance, then we know that economic development is hampered, 
and it is something that this committee needs to look at 
because we have some significant economic issues.
    At this time I recognize the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you, Ms. 
McCarthy for appearing before us again. Here is a question. We 
have already talked about CCS and boiler or coal ash and some 
of these other matters, so I won't get into that. But I am 
interested in the Spruce mine----
    Ms. McCarthy. Yes.
    Mr. McKinley [continuing]. And the fact that for 44 years 
the EPA never used that authority to retroactively withdraw a 
permit that they have done in this case, and I guess the answer 
you just gave to the fact that you don't consider the economic 
impact before you make your decision and make a rule on it, I 
guess that comes into play because the consequences of that 
decision have a chilling effect, certainly not just in the coal 
industry but all industries that have a 404 or 402 permits. If 
they have to make those applications, you can pull them.
    I have talked to a bunch of bankers, and they all said they 
are going to revisit their decision whether or not they will 
purchase any bonds or obligations if EPA for the first time now 
is entering in--they can pull a permit. So the consequences of 
your actions are detrimental to the economic growth here in 
this country.
    I am surprised that you don't take that into consideration 
but I will just have to move on.
    Ms. McCarthy. Congressman, I was trying to make a decision. 
The NAAQ standard is really a health-based standard where cost 
is considered in the implementation, not the standard itself. 
And so we certainly----
    Mr. McKinley. I really want to spend more time on the 
Clean----
    Ms. McCarthy [continuing]. Where available----
    Mr. McKinley [continuing]. Water and safe drinking. That 
was more of a comment that I just hope you would be more 
considerate for the economic impact you are doing with some of 
the decisions.
    But on the Clean Water and Drinking Act, I really want to 
amplify a little bit on what Engel and Tonko, their comments 
about that, and I think numbers of other people have made that 
same response. Do you agree with the President's priorities in 
his budget?
    Ms. McCarthy. Yes, I certainly do.
    Mr. McKinley. This is a chart that I just wanted for 
everyone to maybe be able to get a grasp.
    You made me suck in my breath when you said how much the 
President is investing in clean water--when you see that he 
is--now, his recommendation that you say you support is half 
what it was when he came into office. He does not have a 
priority for funding State Revolving Fund, for clean water and 
clean drinking. You can see the numbers drop from 3.9 to 1.78. 
But yet I see that other things. When you have a chance at $555 
million, you have reduced, because you are with him on this, 
you are reducing the allocation into that account, but you are 
increasing the money for climate change, air quality and 
enforcement.
    Administrator, I have got to tell you. I hold a lot of town 
hall meetings and discussions with small communities in rural 
America. They are not concerned, maybe to the level they should 
be, but they are not as concerned about climate change or your 
enforcement. They just want sewer and water lines. And by 
virtue of the President slashing the money for sewer and water 
lines, for water, water quality, that undermines all their 
hopes and dreams of being able to achieve some health 
environment in these small towns.
    How do you react to that when you see that the President is 
not making it a priority to fund clean water?
    Ms. McCarthy. Well, I can answer that in a few different 
ways, Congressman, because the President was clearly respecting 
the bipartisan budget agreement. That put challenges on EPA in 
order to identify how we were going to expend our resources. We 
did recognize that there were significant investments over the 
past 5 years during this administration, well beyond what had 
been invested the prior eight. We know that money is out and 
being expended. We also know that the revolving fund that 
States have been operating for years is accruing significant 
revenues that is increasing the amount of money they can 
spend----
    Mr. McKinley. If I could reclaim the time.
    Ms. McCarthy [continuing]. On these projects.
    Mr. McKinley. I think it is important to also----
    Ms. McCarthy. So we are doing the best we can.
    Mr. McKinley [continuing]. If I could, fortunately the 
chairman of the Appropriations Committee has gotten a hold of 
this, and now he is stopping it and reversing this downward 
slide by holding steady the amount of money we have for this.
    I am just going to reinforce again as at the end. These 
other issues of enforcement, clean up our communities, there 
may be--that is not what America is worried about. American 
citizens in these small towns want sewer and water lines, and 
for you to take an arbitrary--you said it was a tough decision.
    Ms. McCarthy. Um-hum.
    Mr. McKinley. Think about what that decision is for those 
small towns where they are trying to improve their economy, 
they are trying to give health. I can tell you example after 
example of people of those little communities that have no 
money and no clean water, and yet we put money into more 
environmental----
    Ms. McCarthy. Part of our consideration, sir, is how does 
climate actually exacerbate the challenges of our----
    Mr. McKinley. Oh, come on.
    Ms. McCarthy [continuing]. Infrastructure with----
    Mr. McKinley. You know better than that. We will talk about 
that another day, and you know--it has nothing to do with 
climate change, and you know that.
    Mr. Whitfield. At this time I recognize the gentleman from 
Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chair, and 
Administrator McCarthy, thanks for being with us today----
    Ms. McCarthy. Great to be here. Thanks.
    Mr. Kinzinger [continuing]. And during the long times. I 
want to chat a little bit about nuclear. Nationwide, four 
nuclear plants retired last year, and at least one is scheduled 
to shut down this year. In Illinois, half of our electricity 
generation in fact comes from nuclear plants. Does your agency 
believe that nuclear is critical to provide affordable, 
reliable electricity in the United States?
    Ms. McCarthy. Well, certainly the President does as well as 
the Secretary Moniz at the Department of Energy. EPA tries to 
stay in our lane and make sure that any permits can be issued 
and work can get done, but clearly nuclear plays a big part of 
the current generation capacity, the base load capacity, and 
from a carbon perspective, it is extremely important.
    Mr. Kinzinger. So on January 24th of this year, the CEOs of 
five nuclear companies wrote to your Agency expressing their 
concerns with the cooling towers, or it is the 316(b) rule of 
the Clean Water Act. They raise concerns that the rule could 
trigger the premature retirement of a significant portion of 
the nuclear fleet.
    The letter states that in Virginia, Dominion's preliminary 
estimate for retrofitting the Surry Nuclear Power Station with 
cooling towers is about $3 billion. For the Diablo Canyon Power 
Plant in California, which serves about 10 percent of their 
State's needs, the cost is estimated to be upwards of $12 
billion. And lastly, the letter states that the projection of 
the North American Electric Reliability Corporation on units 
impacted by this rule-making could cause a closure up to 39 
gigawatts of electric generating capacity.
    So I just want to ask what steps, if any, is the EPA taking 
to address the concerns expressed by these nuclear companies? 
And can you provide any assurances that the EPA's cooling tower 
rule will not cause the premature retirement of a significant 
portion of the nuclear fleet?
    Ms. McCarthy. Certainly we have had a number of utilities 
come in expressing concern about 316(b) that was proposed. 
There has been a robust dialogue as there always is, and they 
have come into us. They have had meetings at our Office of 
Management and Budget, and we have been working really closely 
with our other agencies to understand the implications and to 
make sure that this rule is reasonable and appropriate.
    I think you will see that we have listened very closely 
when this rule is released.
    Mr. Kinzinger. Do you have any concerns personally about 
the premature retirement of those plants?
    Ms. McCarthy. We have seen some of the numbers as we are 
looking at greenhouse gas emission projections, and I would 
indicate to you, being from the New England region, I can 
remember when one of our large nuclear base load facilities 
went out when I was working in Massachusetts. It was a scramble 
to try to ensure that we had the reliability we needed, and we 
certainly want to do nothing that would impact reliability in 
this country. But we also want to make sure that we deal with 
the pollution challenges effectively.
    Mr. Kinzinger. And so you would consider the preservation 
of nuclear plants a key part of the administration's, what they 
call their climate change policy?
    Ms. McCarthy. Nuclear is part of the all-of-the-above 
strategy, yes.
    Mr. Kinzinger. OK. It is been reported that the DOE--you 
may or may not be able to answer this--is analyzing a scenario 
in which one-third of our nuclear power plants retire and the 
impact that that would have on the President's Climate Action 
Plan--has estimated that the closure of one-third of our 
nuclear plants would increase electric sector carbon emissions 
by 8 percent, and have you accounted for such a scenario in 
your Agency's modeling?
    Ms. McCarthy. We are looking at a variety of different 
models, yes.
    Mr. Kinzinger. Again, just briefly I'd like to change 
topics about the benefits of mechanical insulation when it 
comes to saving water and energy. Mechanical insulation is a 
proven technology that does not require additional research or 
engineering. Simply put, it is an energy-saving tool that is 
available for deployment today. I have seen instances in which 
your Agency has partnered with various industries, most notably 
the lighting industry, to promote the energy savings that can 
come from using certain projects. Has your agency considered 
partnering with insulation industry in order to push a similar 
program?
    Ms. McCarthy. I do not know, but I will certainly find out.
    Mr. Kinzinger. So you guys would be open to an opportunity?
    Ms. McCarthy. To be very honest with you, I am looking with 
a blank stare for a good reason.
    Mr. Kinzinger. I got you.
    Ms. McCarthy. I know nothing about mechanical insulation. 
But I am more than happy to go back and see if there is 
opportunities there for us.
    Mr. Kinzinger. If you are open to it, I would like to have 
maybe my staff follow up with your staff----
    Ms. McCarthy. That would be great.
    Mr. Kinzinger [continuing]. And we could go from there. 
Thank you, Mr. Chairman and Administrator, thank you, and I 
yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you for being here. I appreciate it. 
You know, it is interesting because it doesn't happen that 
often particularly when we have the EPA Administrator in. But 
without any reference or without any discussions in advance, 
you have had at least two Democrats and now two Republicans 
talk to you about the Clean Water State Revolving Fund.
    This is a big deal, and as you know, I don't often agree 
with things that the EPA is doing. That is one that I have 
touted before publically as something that the EPA gets right, 
and you can imagine my surprise and chagrin when I noticed that 
the President's budget has a 430--and I have heard higher 
numbers, but my folks gave me $430 million cut to that program 
which is so important. And it is particularly important in the 
very reasons that are being impacted by the policies on coal. 
And you know so my district is not a wealthy district. The 
unemployment for those people that are still trying to find 
jobs is high. District-wide it averages out to about $7.61. But 
when you take into account just the coal-producing counties, it 
is over 9 percent unemployment, and it is not just the 9 
percent loss of jobs that are minimum-wage jobs, those are the 
jobs that are paying $60,000, $75,000, $85,000 a year and came 
with benefits. And when you lose hundreds of those over a 
course of just a few years, and my district hasn't been hurt as 
bad as parts of West Virginia and Kentucky, it makes a big 
deal. It is a big difference. When you don't have a job and you 
don't have clean water, it is not a great thing.
    But my folks don't want to be forced to move out of the 
mountains where their ancestors and they have lived for 
hundreds of years. And so I ask you to go back and take a look 
at the revolving fund because it is a big deal.
    Ms. McCarthy. Thank you.
    Mr. Griffith. And I appreciate that. I will have to also 
point out that it is one of the things in the administration--
you are not the only one. Everybody keeps thinking that it is 
not the policies that are pushing coal out the door as much as 
it is the price of natural gas. So I did some quick checking on 
that. Last week, on 3/26, it was $4.42. The experts have all 
told us--per million BTU, the cost of natural gas. Experts have 
all told us that coal competes just fine at $4 or higher. They 
have also told us that they anticipate long term over the next 
couple of years or decades natural gas prices will stabilize in 
the $4 to $6 range. But the coal companies have always been 
used to that fluctuation, as have the power generation 
companies, that fluctuation in price, and I went back and did 
some checking. Toward the end of March in 1997, March 21, 1997, 
the price was $1.87 for the natural gas. March 22, 2002, $3.57. 
2007, $7.16. 2010, $4.08. So it is not the price alone. Sure, 
natural gas went down quite a bit. This winter it spiked in the 
Northeast quite a bit. It has leveled back out into that $4 
range, $4.33 the week before this one or earlier in March, 
$4.42 last week.
    And so you know, to say that that is the reason that all 
these coal facilities are closing down is not accurate. It is 
in fact the policies of this administration that are closing 
that down, that is causing the cost of electricity to go up. 
You know, if we could count on having $2 natural gas which 
nobody thinks we can indefinitely, then theoretically over time 
the consumer who is paying those electric bills might see their 
rates stabilize. That is not going to happen. It is going to be 
a higher rate. And when you take all the coal-powered 
generation off the board, all those families that are 
struggling to make ends meet with the high unemployment rate or 
who are middle-income Americans are going to suffer, and it is 
a serious and significant problem. And I hope that when you are 
looking at your budget, you pay close attention to that as well 
and realize that maybe where we ought to be cutting is the 
folks who are writing all the new regulations here in DC, not 
the folks who are out examining things and not the folks who 
are doing the clean water projects.
    Also, if I could ask you, in regard to EPA's pending 
greenhouse gas rules for existing power plants----
    Ms. McCarthy. Yes.
    Mr. Griffith [continuing]. That are expected to be proposed 
in June, recognizing the difference between setting a standard 
and complying with a standard, do you believe you have the 
legal authority to set the standard based on reductions that 
occur outside the fence line of the facility? And if so, where 
does that authority come from?
    Ms. McCarthy. We have certainly heard from States in our 
many discussions as well as the energy sector that we are 
working with closely that they want us to provide as much 
flexibility as we can in terms of the compliance with this----
    Mr. Griffith. Well, we are certainly under enough pressure 
as it is----
    Ms. McCarthy [continuing]. But any guidance that----
    Mr. Griffith [continuing]. And I only have another second. 
I do want to ask, if the courts vacate, stay or remand the 
rules for the new coal-fired power plants, how does that impact 
your working on the rules for the existing plants? I am talking 
about the carbon.
    Ms. McCarthy. You mean when we finish some?
    Mr. Griffith. Yes, when you finish.
    Ms. McCarthy. They are only proposed so we----
    Mr. Griffith. I understand.
    Ms. McCarthy [continuing]. Need to go through a final. It 
is my understanding that a 21(d) is only required and 
appropriate when you have an existing 111(b) standard that 
governs either new or modified or both.
    Mr. Griffith. All right. I appreciate your answers, and I 
yield back.
    Ms. McCarthy. Thank you, sir.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and Administrator 
McCarthy. Thanks again. It is good to see you again today.
    Ms. McCarthy. You, too.
    Mr. Johnson. I am sure you probably remember back in May of 
2012 you met with Representative Shelly Moore Capito and me to 
discuss a rule that you were working on for ferromanganese 
producers. As there are only two remaining domestic producers 
of this strategically important product left in America, you 
were gracious and gave us your word that the EPA would work 
with the two companies and other stakeholders to craft a rule 
that meets the statutory obligations of the EPA, mitigates the 
unreasonable risks and allows the facilities and the jobs 
associated with those facilities to remain the United States. I 
am fearful that all of that work and your graciousness has been 
for naught because it is my understanding that the rule that 
you submitted to OMB goes well beyond what the stakeholders and 
your own EPA staff had designed to address the local risk 
concerns after substantial investment in time and effort and 
resources in pursuing the three objectives that you gave to us.
    Furthermore, nearly 200 men and women in my hometown of 
Marietta, Ohio, will likely lose their jobs because of your 
Agency's actions on this rule. Are you comfortable with sending 
this vital industry and the related jobs related to 
ferromanganese production overseas?
    Ms. McCarthy. I do remember the concerns that you raised, 
sir, and I believe we have developed a proposal that is now 
being looked at that will meet my obligation to you to look 
closely at this. If we have missed our mark, we are talking 
about a proposal that is due to go out in the end of May. So we 
can certainly have conversations. I would encourage that 
because----
    Mr. Johnson. Well, when----
    Ms. McCarthy [continuing]. During the interagency process, 
folks have an ability to come in and we can talk through these 
issues and when the proposed rule is issued in May.
    Mr. Johnson. Well, I would really like to sit down and have 
another conversation then because it is my understanding that 
the rule that has been sent to OMB goes above and beyond. It is 
going to level millions and millions more on these companies, 
and they are going to shut down.
    Ms. McCarthy. Yes.
    Mr. Johnson. And the crux of the problem is that it goes 
beyond what your own staff recommended in their initial 
findings in working with those companies. So I just want to 
make sure that the hard work that your team went to and that 
these companies went to that we actually produce a----
    Ms. McCarthy. And I want to make folks--make sure that they 
actually understand what is likely to be proposed so that if 
you could encourage it, we can certainly reach out to the 
company directly.
    Mr. Johnson. Well, we will----
    Ms. McCarthy. There are only a few of them. I am more than 
happy to do that if----
    Mr. Johnson. We will reengage. We will reengage. As you 
know, there aren't many secrets in Washington these days, 
except for maybe----
    Ms. McCarthy. Apparently not.
    Mr. Johnson. Except for maybe the real--what the 7.1 
million people that have supposedly enrolled in the healthcare 
law consist of, how many of them had insurance before, and how 
many of them have actually paid their premiums. That is the big 
secret to everybody. But this is not--
    Another one. Your Agency is also working on a MACT rule 
that will significantly impact the brick-making industry.
    Ms. McCarthy. Yes.
    Mr. Johnson. This MACT is unique in that it had already 
been issued, yet it was overturned and vacated by the courts 
despite the brick industry already investing $100 million in 
compliance costs over 10 years. Yet, these controls are now 
being used to establish a new floor for brick industry 
emissions. Recently I helped spearhead a bipartisan letter, 
some 70 members signed it, urging you to reconsider the current 
proposal and use the tools provided within the Clean Air Act to 
minimize regulatory burdens on the brick industry that do not 
provide commensurate environmental benefits.
    So what have you done, Madam Administrator? What have you 
done in regards to addressing our concerns as your Agency works 
toward the August 2014 deadline?
    Ms. McCarthy. We agree with you that this is a proposal 
that actually encompasses a broad number of facilities. Many of 
them are small businesses, and so we are extremely sensitive to 
do outreach to those businesses to make sure that any proposal 
that we put out will be--so to fully understand their concerns 
and what technologies are available and what those standards 
ought to be. This is very challenging.
    Mr. Johnson. I am out of time, but if I could just get your 
commitment? You know, $100 million is a lot of money for that 
industry.
    Ms. McCarthy. I understand.
    Mr. Johnson. Could I get your commitment that you will 
consider that investment already in whatever rules you 
establish? Because that's a vital industry and----
    Ms. McCarthy. Thank you for bringing it up, sir. It is a 
challenge.
    Mr. Johnson. OK. Thank you.
    Mr. Whitfield. At this time I recognize the gentleman from 
Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman, and thank you, 
Administrator McCarthy, for being here today and giving your 
testimony.
    The winter in my part of the country, we have had real 
sharp propane price spikes----
    Ms. McCarthy. Yes.
    Mr. Long [continuing]. Which were market driven, but 
something that could not be controlled by the people in our 
area, of course, and we are going to have them again because I 
just know how the market works. And when that happens, people 
in southwest Missouri where I am from turned to burning wood, a 
good, reliable source of heating their homes because it is 
cheap, available, reliable, and families use wood stoves to 
heat their homes. Farmers use wood-burning stoves and heaters 
for their livestock and other operations. This New Source 
Performance Standard or NSPS, I guess we are calling it here 
today, as I understand were designed primarily to regulate 
industrial activities in large facilities like commercial-scale 
power plants and oil refineries or manufacturing operations.
    Many of my constituents are very concerned about the EPA's 
move forward with potentially unachievable NSPS regulations on 
these wood stoves.
    Ms. McCarthy. Yes.
    Mr. Long. And are you aware of the significant concerns 
because I know I have heard a lot about it with the pending 
regulations and their impact on the affordability of wood, wood 
heating?
    Ms. McCarthy. I certainly am aware of the reliance on wood 
stoves in many communities, and we have been working on this 
rule and working with States and stakeholders for a long time. 
And I think the good news about this rule is I think you will 
see that we listened. We narrowed the kind of technologies that 
we will actually be regulating under this rule. It is only 
about new wood stoves, not existing, and it actually spreads 
the timeline to achieve this window out 5 years so that we can 
take advantage of all the new technologies that are in the 
marketplace to make it efficient for people when they burn 
wood. I know this is important. I expect we will get lots of 
comment on this proposal, but I am sensitive both to the need 
to use wood but also to the impact in some areas that wood 
burning actually has on particulate matter levels.
    Mr. Long. So the stoves that are on the market today can 
continue to be sold for 5 years, is that correct?
    Ms. McCarthy. The stoves that are on the market today can 
be sold for 5 years, but in that--but no stoves are actually 
going to be taken off the market. We know that stoves are 
available to achieve the standards that are in the rule, but we 
pushed that out 5 years----
    Mr. Long. They are available now?
    Ms. McCarthy. They are available now. And we just pushed 
that compliance window out so that we wouldn't be impacting the 
current stoves that are for sale but only sending the right 
signals that those newer stoves, those more efficient, are ones 
that should be entering into the marketplace 5 years from now. 
We actually provided an alternative that would make it 8 years 
as well. So we are trying our best to help this transition 
along without impacting the wood stove industry which is really 
coming up with some very efficient stoves moving forward.
    Mr. Long. These stoves are available now that----
    Ms. McCarthy. That is right.
    Mr. Long [continuing]. Comply with the standards that will 
go into effect 5 years from now?
    Ms. McCarthy. That is correct.
    Mr. Long. I doubt--if you want to tell me now, you can, if 
you have it off the top of your head what those are, but could 
you get back with the committee and give me a list of what 
companies, what brands, what models----
    Ms. McCarthy. Absolutely. Yes.
    Mr. Long [continuing]. Currently today because that would 
help me because I am answering a ton of mail on this----
    Ms. McCarthy. I would----
    Mr. Long [continuing]. And people are very, very concerned 
in my area. So if you can provide that to the committee, I 
would appreciate it greatly.
    Ms. McCarthy. That would be great. I would be happy to do 
that.
    Mr. Long. Thank you. And with that, Mr. Chairman, I yield 
back.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Colorado, Mr. Gardner, for 5 
minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, 
Administrator McCarthy----
    Ms. McCarthy. How are you?
    Mr. Gardner [continuing]. For joining us today. Last Friday 
the White House announced a strategy to cut methane emissions 
for the oil and gas sector. The White House states, and I 
quote, ``In the spring of 2014, EPA will assess several 
potentially significant sources of methane and other emissions 
from the oil and gas sector. EPA will solicit input from 
independent experts through a series of technical white papers. 
In the fall of 2014, EPA will determine how best to pursue 
further methane reductions from these sources. If EPA decides 
to develop additional regulations, it will complete those 
regulations by the end of 2016.''
    I am concerned that these efforts could harm the economy of 
many States, especially States who are trying to promote their 
own efforts and other States that are seeing the benefits of 
unconventional oil and gas production. The University of 
Colorado estimates that 68,000 jobs could be lost in Colorado 
and even more in secondary jobs if hydraulic fracturing is 
prohibited.
    Now, we also have an immense opportunity before us to sell 
some natural gas abroad which I think would strengthen our 
allies and lower our trade deficit.
    We had a hearing last week on legislation I introduced, 
H.R. 6, that would reform the LNG export approval process. I am 
worried that the administration's regulations may end one of 
the few good economic stories that is happening in our country. 
What kind of regulations for the oil and gas sector are under 
consideration at this point?
    Ms. McCarthy. Under consideration at this point is actually 
a release of white papers. We are actually going to be working 
with the industry, going to collect data, before any decision 
is made about any next opportunity that regulation may provide.
    Mr. Gardner. Those are regulations on methane?
    Ms. McCarthy. That is correct.
    Mr. Gardner. Any other regulations on other matters?
    Ms. McCarthy. I am trying to think. I don't want to answer 
too quickly. If there is, I will let you know.
    Mr. Gardner. OK.
    Ms. McCarthy. But at this point, I am not anticipating any.
    Mr. Gardner. What is the legal authority for the methane 
regulation?
    Ms. McCarthy. It would be under the Clean Air Act. Right 
now we actually regulate volatile organic compounds from 
natural gas wells during the hydrofracking process because that 
is already a traditional pollutant under the Clean Air Act. It 
captures the methane. It may very well be that we decide not to 
regulate methane from additional wells.
    Mr. Gardner. Would that be Section 111 of the Clean Air 
Act?
    Ms. McCarthy. That is correct.
    Mr. Gardner. That is Section 182 of the Clean Air Act?
    Ms. McCarthy. That is correct.
    Mr. Gardner. Are there other possible statutory authorities 
outside of those two?
    Ms. McCarthy. None that I have considered.
    Mr. Gardner. But nothing that you have considered but there 
may be other statutory authorities?
    Ms. McCarthy. There may be. I have no----
    Mr. Gardner. Has EPA already decided to develop additional 
methane regulations for the oil and gas sector?
    Ms. McCarthy. No.
    Mr. Gardner. If EPA hasn't decided whether to issue 
regulations or what form they may take or confirm the statutory 
authority, why are you setting up a schedule for completing the 
regulations?
    Ms. McCarthy. It was in anticipation to send the signal to 
the industry about when it might be considered, but the first 
step is a white paper to collect information. Colorado and 
other States have been developing their own regulations on 
these issues. We are very respectful of that. We need to work 
with the States in the industry before any decision is made.
    Mr. Gardner. Last week EPA also announced plans to bring 
nearly all rivers, creeks and streams under the regulatory 
control of the Federal Government through the Clean Water Act. 
EPA's proposal would now cover streams that might only flow in 
some seasons and are isolated from navigable waters.
    In my State of Colorado, where according to the EPA's own 
study, 68 percent of the streams are intermittent. This 
proposal could have a major impact. The bipartisan Western 
Governors' Association immediately criticized EPA's proposal on 
the day that it was released in a letter that was cosigned by 
my State's Governor. The Governors stated that they were not 
adequately consulted on this proposed regulation, and the 
proposal could harm a State's ability to manage their waters.
    How will you correct this problem?
    Ms. McCarthy. Well, we have certainly done outreach, and we 
will work with the Western Governors' Association. I talked to 
Governor Sandoval yesterday. And so we have been working with 
the States on this issue. But your characterization that the 
waters of the United States is actually going to be bringing 
every water under the jurisdiction of the Waters of the United 
States is not correct, sir. Actually, we have listened to the 
Supreme Court, and what is included in the Waters of the United 
States are waters that are navigable as well as those waters 
that could significantly impact----
    Mr. Gardner. What do you define as----
    Ms. McCarthy [continuing]. The chemical, physical and 
biological----
    Mr. Gardner. What do you define as navigable?
    Ms. McCarthy [continuing]. Integrity of navigable----
    Mr. Gardner. What do you define as navigable?
    Ms. McCarthy. The same way that you would.
    Mr. Gardner. Put a boat in it?
    Ms. McCarthy. Rivers, large rivers, large streams.
    Mr. Gardner. Large? What is large? I mean, seriously, 
because I am thinking of the South Platte River in Colorado. I 
am thinking of the Republican River in Colorado----
    Ms. McCarthy. I don't think there is any disagreement----
    Mr. Gardner [continuing]. To Arkansas.
    Ms. McCarthy [continuing]. About what a navigable water is, 
sir. The question is what is the extent of Waters of the United 
States and is it limited to navigable waters? And it actually 
isn't. It includes navigable waters, and those waters, that if 
they are damaged, could significantly impact the integrity of 
navigable waters.
    Mr. Gardner. But an intermittent flow----
    Ms. McCarthy. That has never been in question.
    Mr. Gardner. An intermittent flow river could be considered 
at times a navigable river?
    Ms. McCarthy. It absolutely could.
    Mr. Gardner. So 68 percent of the rivers in Colorado which 
are intermittent, could then fall under this rule?
    Ms. McCarthy. They could actually have to do a test or a 
case-by-case analysis as to whether or not they are not only 
hydrologically connected but whether they have a significant 
nexus to navigable waters. It does not automatically make them 
subject to Clean Water Act permitting.
    Mr. Gardner. Are you familiar with Colorado Water Law as 
compared to other States' water laws?
    Ms. McCarthy. I am not familiar with Colorado Water Law.
    Mr. Gardner. A board of independent science advisors that 
have been tasked by the EPA to study the water bodies that are 
going to--I think my time--I have got a couple of additional 
questions that I would submit to you for the record.
    Ms. McCarthy. I am happy to work with you on this, sir.
    Mr. Gardner. Mr. Chairman, my time has expired. Thank you.
    Mr. Whitfield. All right. Yes, submit them for the record. 
So I guess that concludes the hearing.
    I do want to have a contact at the EPA, Ms. McCarthy, 
because Congressman Rothfus and other members of the 
Pennsylvania delegation, including Senator Casey, have asked me 
to try to arrange a meeting relating to EPA's utility MACT rule 
and its impact on Pennsylvania, Illinois, Utah and West 
Virginia relating to recycling coal waste using a circulating 
fluidized bed technology. They have got these plants, and they 
are taking the coal waste and they are producing power from it. 
And they are cleaning up the environment, eliminating this coal 
waste, and it appears that they are going to be forced to close 
down.
    And so I would like the name of a person that you would 
tell me at EPA that we could talk to because some members of 
the Pennsylvania delegation and others would like to have a 
meeting with you all here to discuss this. So if you could--
    Ms. McCarthy. I will have my Legislative Director get in 
touch with your staff right away, and we will make sure that we 
get appropriate meetings set up.
    Mr. Whitfield. OK.
    Ms. McCarthy. Thank you.
    Mr. Whitfield. Mary----
    Ms. McCarthy. Thanks for calling it.
    Mr. Whitfield. OK. And then you know, the first article of 
the Constitution talks about the legislative branch of 
Government, and we have the responsibility for oversight. And I 
know that you all get a lot of requests, but back in early 
October and early December, as a result of some hearings that 
we had, we had asked for some specific information from EPA to 
reply to our request. We received it today. So it is, you know, 
4 or 5 months in receiving it. And then in November we wrote a 
letter about the Energy Policy Act asking the legal 
justification for setting those three plants in the United 
States as the emission standard, and then on March the 12th, we 
sent a letter requesting documents--March 12th.
    Mrs. Capps. Yes.
    Mr. Whitfield. That was last year.
    Mrs. Capps. This year, yes.
    Mr. Whitfield. Well, we won't worry about that one. But on 
the November 15th letter----
    Ms. McCarthy. We have to have a meeting scheduled on that 
one, sir.
    Mr. Whitfield. We would like to have a response, and then 
you said it was in the record and so forth, but we asked some 
specific questions. We would appreciate a response.
    Ms. McCarthy. If we have not answered you appropriately, we 
will----
    Mr. Whitfield. Well, it is my understanding we have not 
been answered appropriately.
    Ms. McCarthy. OK.
    Mr. Whitfield. So if you would do that, we would appreciate 
that.
    Ms. McCarthy. I will.
    Mr. Whitfield. And then finally I just want to ask one 
question to get it clarified. Can you identify any fully 
operational base-loaded coal-fired power plant using CCS on a 
commercial operation anywhere in the United States today?
    Ms. McCarthy. Did you say power plant, sir?
    Mr. Whitfield. Yes.
    Ms. McCarthy. I am not aware of any, but I will certainly 
double check.
    Mr. Whitfield. Well, we are not aware of any, either, so 
that----
    Ms. McCarthy. I know they are being constructed, and I know 
they are close to operational.
    Mr. Whitfield. Well, with Federal funds, but OK. Thank you 
very much. Did you have a question Mr.--OK. Well, that 
concludes today's hearing. We thank you very much for your 
patience and spending 2 \1/2\ hours with us.
    Ms. McCarthy. Thank you, Mr. Chairman.
    Mr. Whitfield. And we look forward to working with you as 
we move forward. The record will remain open for 10 days, and 
that concludes today's hearing.
    [Whereupon, at 12:40 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
